<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2017</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]


 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2017

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2016

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:21 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. John Hoeven (chairman) presiding.
    Present: Senators Hoeven, Cochran, Murkowski, Cassidy, 
Shaheen, and Baldwin.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF HON. JEH C. JOHNSON, SECRETARY


                opening statement of senator john hoeven


    Senator Hoeven. I will call this hearing of the Senate 
Appropriations Committee on Homeland Security to order. I want 
to begin by thanking the Honorable Secretary for Homeland 
Security, Secretary Johnson, for being with us today. We 
appreciate it very much. We understand the demands on your 
schedule, and so we certainly appreciate you being here with us 
today.
    I would like to welcome our ranking member, Senator 
Shaheen, good to be with you, also the full Appropriations 
Committee chairman, who is here, Senator Cochran, thank you for 
joining us today. And, Senator Murkowski, thank you for joining 
us as well. We anticipate other members of the Committee will 
be joining us as the hearing proceeds.
    And I would take a minute to defer to the chairman of our 
full Appropriations Committee, Senator Cochran, for any opening 
remarks that you might have, Mr. Chairman.


                   statement of senator thad cochran


    Senator Cochran. Mr. Chairman, thank you very much. And I 
am happy to join you in welcoming our witnesses and others who 
are here today to help us understand the implications that are 
reflected in the administration's budget request for the 
Department of Homeland Security (DHS) for fiscal year 2017.
    The Commandant of the Coast Guard recently testified that 
actionable intelligence led to approximately 90 percent of 
maritime drug interdictions, but they can only attempt to 
target and disrupt 20 percent of the known flow. And that is 
kind of scary, but it puts in context, I think, as the 
beginning of this hearing, how there are a lot of unanswered 
questions and challenges for law enforcement and others, and 
raises concern that the Coast Guard is being put in additional 
stress.
    But we are prepared to listen to the testimony of our 
witness, who we appreciate being here today. We look forward to 
trying to be a constructive influence in this process, and so 
we will be happy to receive your advice and counsel on the ways 
to proceed.
    Senator Hoeven. Thank you, Senator Cochran, and again, 
thanks for being here today.
    I do apologize. I know it is a little warm in here. Mr. 
Secretary, that was not by design I assure you. They did not 
turn up the heat intentionally, and I think in fact they are 
working on it, so hopefully they will get the air-conditioning 
going as we proceed.
    Secretary Johnson. The press will report that I was on the 
hot seat irrespective of the room temperature.
    Senator Hoeven. Indeed.
    Secretary Johnson. I am always on the hot seat.
    Senator Hoeven. I have some opening remarks, and then I 
will turn to our ranking member and other members, and then we 
will ask for your opening statement, Mr. Secretary.
    The Director of the National Intelligence recently 
testified regarding the worldwide threat stating first and 
foremost that ``unpredictable instability has become the new 
normal.'' He was pointing to the threat from violent extremists 
and their growing reach in countries around the globe. And last 
year, we saw brutal attacks in Paris and San Bernardino and 
Chattanooga and others.
    The American people rightfully are concerned about 
terrorism, which they see as encompassing violent extremism. In 
a December 2015 Gallup Poll, 16 percent of Americans cited 
terrorism as the number one problem facing the United States, 
and that is the highest level that it has been in 10 years.
    I know, Mr. Secretary, you are well aware of the threats 
facing this Nation and that you believe in the Department's 
critical roles and missions in countering those threats. Yet 
with that context, the President's fiscal year 2017 request 
creates some real challenges for this Committee.
    Let me first note some significant shortfalls that are 
present in the budget request. Now, the budget includes $909 
million in proposed Transportation Security Administration 
(TSA) fees. Without that revenue, TSA would be cut by almost 20 
percent. And of course, that is not a reduction that we can or 
should make for TSA. So we are going to have to address that, 
you know, across the full budget.
    Next, the budget proposes to cut immigration enforcement, 
specifically detention operations by about $350 million. Now, 
that reduction is largely targeted at family residential 
centers but also reduces adult beds. The current population is 
thousands above the requested level, so we are already above 
that level in terms of current population. And due to 
seasonality, the detained population is lower now than it is 
likely to be later in the year.
    Now, you are turning a corner in getting cooperation from 
State and local enforcement in honoring detainers, and I know 
you have been working on that and it is very important. But 
that is also going to be a need for more detention beds. And so 
this is going to be another issue where we are going to have to 
figure something out. And so to get these higher removal 
numbers, you are going to need that detention capacity for your 
removal operations.
    On top of that, the request cuts State and local 
preparedness grants in the Federal Emergency Management Agency 
(FEMA) by $560 million, and that is something we will want to 
talk about. Our State and local partners rely on those funds to 
be on the frontlines in the war on terrorism. Stable funding 
and measurable results are essential to these programs to avoid 
massive fluctuations in funding, which have a ripple effect at 
the State and local levels. Given the threat our country faces, 
this is a cut that we are going to have to restore for States 
and localities.
    As a result of those reductions, we are facing a very tight 
budget this year, I think a more challenging budget this year 
than last year. And obviously, we are not going to be able to 
fund all of the things outlined in this budget, but we are 
going to have to do some reprioritization in these areas that I 
emphasized.
    We need your priorities, Mr. Secretary, and your ideas for 
addressing some of these areas, and we will be talking about 
those areas specifically today and getting your input. I want 
to specifically understand your personnel costs since salaries 
and benefits are your largest cost drivers.
    And then we have both attrition and areas where you are not 
able to fill the number of people that you need, more Border 
Patrol agents, for example, Secret Service, you know, areas 
where we have got to find ways to fill those slots.
    Also, I want to continue our conversation regarding 
metrics, something you and I have talked about when we met 
recently. The Department needs to do all it can to assess its 
needs and demonstrate its effectiveness through data and 
metrics. We need to be able to track that progress. Whether it 
is determining the right mix of personnel and technology to 
conduct the mission or publicly reporting on border flows and 
enforcement actions, it is very important that we have that 
information. You and I have talked about that, and that is 
another area that I hope to drill into today--to talk about 
metrics and measurements and what kind of progress you are 
making. So we will go through that in some detail.
    Last, I am going to ask for some updates on programs across 
the Department. Some of these we have talked about. I continue 
to support implementation of biometric exit and want to 
understand your plan and how we can be helpful in advancing 
that plan. Also, cybersecurity, obviously a big focus for you, 
and I think for everyone in Congress as well, with what is 
going on.
    We are going to want to talk about TSA. We have got a new 
TSA Director. I think he is the right person for the job. And 
so we are going to want to talk about how they are transforming 
their operations, personnel, training, and technology. Again, I 
think he is providing good direction, but we have to make sure 
that they are accomplishing their objectives and that we are 
tracking their progress.
    I will stop there at this point and turn to our ranking 
member, Senator Shaheen.


                  statement of senator jeanne shaheen


    Senator Shaheen. Thank you, Mr. Chairman. And welcome, 
Secretary Johnson. We are delighted to have you before this 
subcommittee again to talk about your request for the 
Department of Homeland Security. And I should say at the outset 
that I share concerns about a number of the issues that 
Chairman Hoeven has raised.
    I do appreciate, as we all do, the diverse missions of the 
Department and the millions of Americans whose lives are 
affected by the work that you do. I think, if anything, the 
mission may be getting broader because of the challenges that 
we face today. And I share Chairman Hoeven's concern about the 
administration's request of $40.5 billion, which really reduces 
funding for the Department's operations in 2017.
    I have several concerns about this. First has to do also 
with the proposed $909 million increase in aviation security 
fees that have not yet been authorized. While I appreciate that 
that is an important potential source of revenue, I think the 
politics of trying to get that done are really questionable.
    Second, I am concerned about the reductions in the budget 
for FEMA's State and local grant programs. They were a priority 
of the administration a year ago, and yet they have been 
reduced by about 20 percent.
    And finally, the proposal suggests that we are going to 
rescind $120 million from emergency disaster loans that the 
Congressional Budget Office (CBO), at least in our 
interpretation, is not likely to allow us to entirely take as a 
discretionary offset. So this means we start this budget 
process with a hole of about $1.5 billion. I am hoping that you 
can share some insights into how you made those tradeoffs in 
the budget and what the expectations are.
    Now, I do have some areas where I think the budget proposal 
is very positive, certainly with respect to strengthening our 
cybersecurity infrastructure. That is very important. The 30-
percent increase will help not only our Federal networks but 
will help us as we are working with the private sector.
    I was also very pleased to see the Department's continued 
efforts on countering violent extremism (CVE). I recently had 
the opportunity to watch the University of New Hampshire's 
Peer-to-Peer Program presentation. It was very impressive and 
really showed what young people can do in helping us as we are 
trying to address this challenge.
    Also I was pleased to see the request fully funds FEMA's 
projected disaster response and recovery needs given what is 
happening with the weather events in the country. I think that 
is very important.
    And finally, in closing, I do want to mention the heroin 
crisis that we are facing in New Hampshire and in so many 
States across this country because, while the Department of 
Homeland Security does not have direct responsibility to combat 
this problem, certainly the Coast Guard and the Customs and 
Border Protection (CBP) play critical roles in interdicting 
heroin and other drugs as they come across the border. I am 
looking forward to hearing what more the Department is thinking 
about in terms of helping as we try and address this problem.
    I look forward to hearing your comments today, Mr. 
Secretary, and to seeing how this Committee can work with you 
as we get a budget that makes sense for the country and the 
Department.
    Secretary Johnson. Thank you.
    Senator Hoeven. I would like to thank both Senator Cassidy 
and Senator Baldwin for joining us and turn at this point to 
see if there are any other opening statements starting with 
Senator Murkowski.


                  statement of senator lisa murkowski


    Senator Murkowski. Mr. Chairman, I have had a quick 
conversation with Secretary Johnson. First, I appreciate you 
being here. I have alerted him to the fact that most of my 
questions this afternoon are going to relate to the Coast Guard 
budget. Recognizing that we are not going to be having a 
separate hearing on the Coast Guard's budget as part of 
Homeland Security, I thank you for this opportunity to bring up 
these questions with the Secretary and look forward to working 
with you and the ranking member on these important issues to my 
State and the country. Thank you.
    Senator Hoeven. Thank you, Senator Murkowski.
    Senator Baldwin.


                   statement of senator tammy baldwin


    Senator Baldwin. I appreciate your holding this hearing. I 
am going to be submitting some questions for the record due to 
my schedule after your presentation, Secretary Johnson. But as 
a member of both the authorizing committee and this Committee, 
it is especially helpful for us to be able to spend this time 
with you, and I appreciate it.
    Secretary Johnson. Thank you.
    Senator Hoeven. Thank you. Senator Cassidy.
    Senator Cassidy. In the interest of time I will restrict 
myself to my question period. I am good.
    Senator Hoeven. Very good. Thank you.
    Secretary Johnson, your opening statement.


                summary statement of hon. jeh c. johnson


    Secretary Johnson. Thank you. Chairman, Senators, I am 
pleased to be here.
    The President's fiscal year 2017 budget request for the 
Department of Homeland Security reflects hard choices to fit 
within the caps established by the bipartisan budget agreement 
of 2015, but at the end of the day, it funds all of our vital 
homeland security missions in these challenging times.
    The President's budget request calls for $40.6 billion in 
appropriated funds compared, as you noted, Senator, to $41 
billion currently in fiscal year 2016, but an increase in total 
spending authority to $66.8 billion compared to $64.8 billion 
in the current fiscal year. To be clear, as has already been 
noted, part of that top line, $66.8 billion we are requesting 
be funded by fee increases, and we have submitted authorization 
language to the Congress to authorize those fee increases.
    Total workforce request is 229,626, compared to 226,157 in 
the current fiscal year, accompanied by an overall workforce 
pay raise of 1.6 percent. Like this year, the President's 
budget requests $6.7 billion to finance the cost of major 
disasters in FEMA's disaster relief fund, and the ability to 
collect fees of $19.5 billion in fees compared to $17.1 billion 
this year.
    Of note, our budget request includes $5.1 billion for 
transportation screening operations; $1.6 billion, an increase 
of more than $200 million, to fund our vital cybersecurity 
missions; $1.9 billion for the Secret Service, which is at the 
same level enacted in 2016; $319 million to cover costs 
associated with unaccompanied children and families who cross 
our border illegally; $1.1 billion for recapitalization of the 
Coast Guard, including a sizable investment in this Nation's 
future arctic capability; and $226 million for continued 
investment in the construction of a future DHS headquarters at 
St. Elizabeths.
    Like last year, reforming the way in which the Department 
of Homeland Security functions and conducts business to more 
effectively and efficiently deliver our services to the 
American people is my top objective for 2016. We have done a 
lot in the last 2 years, but there is still much we will do and 
we can do. There are still too many stovepipes and 
inefficiencies in the Department.
    The centerpiece of our management reform effort has been 
the Unity of Effort initiative I announced and launched in 
April 2014, which focuses on getting away from the stovepipes 
in favor of more centralized programming, budgeting, and 
acquisition processes. Overall, my goal as Secretary continues 
to be the protection of the homeland and leaving the Department 
of Homeland Security a better place than I found it.
    Thank you, and I look forward to your questions.
    [The statement follows:]
               Prepared Statement of Hon. Jeh C. Johnson
                              introduction
    Chairman Hoeven, Ranking Member Shaheen, and members of the 
subcommittee, thank you for the opportunity to be here.
    The President's fiscal year 2017 budget request for the Department 
of Homeland Security (DHS) reflects hard choices to fit within the caps 
established by the bipartisan budget agreement of 2015, but at the end 
of the day, it funds all of our vital homeland security missions in 
these challenging times.
    The President's fiscal year 2017 budget request calls for $40.6 
billion in appropriated funds (compared to $41 billion currently in 
fiscal year 2016) but an increase in total spending authority to $66.8 
billion (compared to $64.8 billion currently in fiscal year 2016). 
Total workforce requested is 229,626, compared to 226,157 in fiscal 
year 2016, accompanied by an overall workforce pay raise of 1.6 
percent.
    Like this year, the President's budget requests $6.7 billion to 
finance the cost of major disasters in the Federal Emergency Management 
Agency's (FEMA's) disaster relief fund, and the ability to collect fees 
of $19.5 billion (compared to $17.1 billion this year).
    As I said before, the President's budget request funds our vital 
homeland security missions. Our request includes:
  --$5.1 billion for transportation screening operations, including 
        increased screening personnel, to ensure the security of our 
        airways, a $100 million increase;
  --$1.6 billion, an increase of over $200 million, to fund our vital 
        cybersecurity mission, including increased investments in the 
        Continuous Diagnostic Mitigation program;
  --$1.9 billion for the Secret Service, which is the same as enacted 
        in fiscal year 2016, to protect our national leaders, fight 
        cyber-crime, and support increased hiring;
  --$319 million to cover costs associated with unaccompanied children 
        and families;
  --$1.1 billion for recapitalization of the U.S. Coast Guard's assets, 
        including a sizable investment in the Nation's future arctic 
        capability; and
  --$226 million for continued investment in the construction of a 
        future DHS headquarters at St. Elizabeths.
                           management reform
    Like last year, reforming the way in which the Department of 
Homeland Security functions and conducts business, to more effectively 
and efficiently deliver our services to the American people, is my 
overarching objective for 2016. We've done a lot in the last 2 years, 
but there is still much we will do. There are still too many stove 
pipes and inefficiencies in the Department.
    My goal as Secretary is to continue to protect the homeland, and 
leave the Department of Homeland Security a better place than I found 
it.
    The centerpiece of our management reform has been the Unity of 
Effort initiative I announced in April 2014, which focuses on getting 
away from the stove pipes, in favor of more centralized programming, 
budgeting, and acquisition processes.
    We have already transformed our approach to the budget. Today, we 
focus Department-wide on our mission needs, rather than through 
component stove pipes. With the support of Congress, we are moving to a 
simplified budget structure that will support better decisionmaking 
across the Department.
    We have transformed our approach to acquisition. Last year, I 
established a DHS-wide Joint Requirements Council to evaluate, from the 
viewpoint of the Department as a whole, a component's needs on the 
front end of an acquisition.
    We have launched the ``Acquisition Innovations in Motion'' 
initiative, to consult with the contractor community about ways to 
improve the quality and timeliness of our contracting process, and the 
emerging skills required of our acquisition professionals. We are 
putting faster contracting processes in place.
    We are reforming our human resources process. We are making our 
hiring process faster and more efficient. We are using all the tools we 
have to recruit, retain and reward personnel.
    As part of the Unity of Effort initiative, in 2014 we created the 
Joint Task Forces dedicated to border security along the southern 
border. Once again, we are getting away from the stove pipes. In 2015, 
these task forces became fully operational. In 2016, we are asking 
Congress to officially authorize them in legislation.
    We are achieving more transparency in our operations. We have 
staffed up our Office of Immigration Statistics and gave it the mandate 
to integrate immigration data across the Department. Last year, and for 
the second year in a row, we reported our total number of 
repatriations, returns and removals on a consolidated, Department-wide 
basis.
    The long-awaited entry/exit overstay report was published in 
January, providing a clearer picture of the number of individuals in 
this country who overstay their visitor visas. It reflects that about 1 
percent of those who enter the country by air or sea on visitor visas 
or through the Visa Waiver Program overstay.
    We are working with outside, nonpartisan experts on a project 
called BORDERSTAT, to develop a clear and comprehensive set of outcome 
metrics for measuring border security, apprehension rates, and inflow 
rates.
    Since 2013 we've spearheaded something called the ``DHS Data 
Framework'' initiative. For the protection of the homeland, we are 
improving the collection and comparison of travel, immigration and 
other information against classified intelligence. We will do this 
consistent with laws and policies that protect privacy and civil 
liberties.
    We want to restructure the National Protection and Programs 
Directorate from a headquarters element to an operational component 
called the ``Cyber and Infrastructure Protection'' agency.
    Finally, we will improve the levels of employee satisfaction across 
the Department. We've been on an aggressive campaign to improve morale 
over the last 2 years. It takes time to turn a 22-component workforce 
of 240,000 people in a different direction. Though the overall results 
last year were still disappointing, we see signs of improvement. 
Employee satisfaction improved in a number of components, including at 
DHS headquarters.
    This year we will see an overall improvement in employee 
satisfaction across DHS.
                            counterterrorism
    In 2016, counterterrorism will remain the cornerstone of the 
Department of Homeland Security's mission. The events of 2015 reinforce 
this.
    As I have said many times, we are in a new phase in the global 
terrorist threat, requiring a whole new type of response. We have moved 
from a world of terrorist-directed attacks to a world that includes the 
threat of terrorist-inspired attacks--in which the terrorist may have 
never come face to face with a single member of a terrorist 
organization, lives among us in the homeland, and self-radicalizes, 
inspired by something on the Internet.
    By their nature, terrorist-inspired attacks are harder to detect by 
our intelligence and law enforcement communities, could occur with 
little or no notice, and in general makes for a more complex homeland 
security challenge.
    So, what are we doing about this?
    First, our Government, along with our coalition partners, continues 
to take the fight militarily to terrorist organizations overseas. ISIL 
is the terrorist organization most prominent on the world stage. Since 
September 2014, air strikes and special operations have in fact led to 
the death of a number of ISIL's leaders and those focused on plotting 
external attacks in the West. At the same time, ISIL has lost about 40 
percent of the populated areas it once controlled in Iraq, and 
thousands of square miles of territory it once controlled in Syria.
    On the law enforcement side, the FBI continues to do an excellent 
job of detecting, investigating, preventing, and prosecuting terrorist 
plots here in the homeland.
    As for the Department of Homeland Security, following the attacks 
in Ottawa, Canada, in 2014, and in reaction to terrorist groups' public 
calls for attacks on government installations in the western world, I 
directed the Federal Protective Service to enhance its presence and 
security at various U.S. Government buildings around the country.
    Given the prospect of the terrorist-inspired attack in the 
homeland, we have intensified our work with State and local law 
enforcement. Almost every day, DHS and the FBI share intelligence and 
information with Joint Terrorism Task Forces, fusion centers, local 
police chiefs and sheriffs.
    In fiscal year 2015 we provided homeland security assistance to 
State and local governments around the country, for things such as 
active shooter training exercises, overtime for cops and firefighters, 
salaries for emergency managers, emergency vehicles, and communications 
and surveillance equipment. We helped to fund an active shooter 
training exercise that took place in the New York City subways last 
November and a series of these exercises earlier this month in Miami. 
Last week we announced another round of awards for fiscal year 2016 
that will fund similar activities over the next 3 years.
    As I said at a graduation ceremony for 1,200 new cops in New York 
City in December, given the current threat environment, it is the cop 
on the beat who may be the first to detect the next terrorist attack in 
the United States.
    We are also enhancing information-sharing with organizations that 
represent businesses, college and professional sports, faith-based 
organizations, and critical infrastructure.
    We are enhancing measures to detect and prevent travel to this 
country by foreign terrorist fighters.
    We are strengthening our Visa Waiver Program, which permits 
travelers from 38 different countries to come here without a visa. In 
2014, we began to collect more personal information in the Electronic 
System for Travel Authorization, or ``ESTA'' system, that travelers 
from Visa Waiver countries are required to use. As a result of these 
enhancements, over 3,000 additional travelers were denied travel here 
in fiscal year 2015.
    In August 2015, we introduced further security enhancements to the 
Visa Waiver Program.
    Through the passage in December of the Visa Waiver Program 
Improvement and Terrorist Travel Prevention Act of 2015, Congress has 
codified into law several of these security enhancements, and placed 
new restrictions on eligibility for travel to the United States without 
a visa. We began to enforce these restrictions on January 21. Waivers 
from these restrictions will only be granted on a case-by-case basis, 
when it is in the law enforcement or national security interests of the 
United States to do so. Those denied entry under the Visa Waiver 
Program as a result of the new law may still apply for a visa to travel 
to the United States.
    Last week, under the authority given me by the new law, I also 
added three countries--Libya, Yemen, and Somalia--to a list that 
prohibits anyone who has visited these nations in the past 5 years from 
traveling to the United States without a visa.
    We are expanding the Department's use of social media for various 
purposes. Today social media is used for over 30 different operational 
and investigative purposes within DHS. Beginning in 2014 we launched 
four pilot programs that involved consulting the social media of 
applicants for certain immigration benefits. USCIS now also reviews the 
social media of Syrian refugee applicants referred for enhanced 
vetting. Based upon the recent recommendation of a Social Media Task 
Force within DHS, I have determined, consistent with relevant privacy 
and other laws, that we must expand the use of social media even 
further.
    CBP is deploying personnel at various airports abroad, to pre-clear 
air travelers before they get on flights to the United States. At 
present, we have this preclearance capability at 15 airports overseas. 
And, last year, through preclearance, we denied boarding to over 10,700 
travelers (or 29 per day) seeking to enter the United States. As I said 
here last year, we want to build more of these. In May 2015, I 
announced 10 additional airports in nine countries that we've 
prioritized for preclearance.
    For years Congress and others have urged us to develop a system for 
biometric exit--that is, to take the fingerprints or other biometric 
data of those who leave the country. CBP has begun testing technologies 
that can be deployed for this nationwide. With the passage of the 
omnibus bill, Congress authorized up to $1 billion in fee increases 
over a period of 10 years to pay for the implementation of biometric 
exit. I have directed that CBP begin implementing the system, starting 
at top airports, in 2018.
    Last month I announced the schedule for the final two phases of 
implementation of the REAL ID Act, which goes into effect 2 and then 4 
years from now. At present 23 States are compliant with the law, 27 
have extensions, and 6 States or territories are out of compliance. Now 
that the final timetable for implementation of the law is in place, we 
urge all States, for the good of their residents, to start issuing REAL 
ID-complaint drivers' licenses as soon as possible.
    In the current threat environment, there is a role for the public 
too. ``If You See Something, Say Something'' <SUP>TM</SUP> must be more 
than a slogan. We continue to stress this. DHS has now established 
partnerships with the NFL, Major League Baseball and NASCAR, to raise 
public awareness at sporting events. An informed and vigilant public 
contributes to national security.
    In December we reformed NTAS, the National Terrorism Advisory 
System. In 2011, we replaced the color-coded alerts with NTAS. But, the 
problem with NTAS was we never used it, it consisted of just two types 
of alerts: elevated and imminent, and depended on the presence of a 
known specific and credible threat. This does not work in the current 
environment, which includes the threat of homegrown, self-radicalized, 
terrorist-inspired attacks. So, in December we added a new form of 
advisory--the NTAS bulletin--to augment the existing alerts. The 
bulletin we issued in December advises the public of the current threat 
environment, and how the public can help.
    Finally, given the nature of the evolving terrorist threat, 
building bridges to diverse communities has become a homeland security 
imperative. Well-informed families and communities are the best defense 
against terrorist ideologies. Al Qaeda and the Islamic State are 
targeting Muslim communities in this country. We must respond. In my 
view, this is as important as any of our other homeland security 
missions.
    In 2015 we took these efforts to new levels. We created the DHS 
Office for Community Partnerships, headed by George Selim. George and 
this office are now the central hub for the Department's efforts to 
counter violent extremism in this country, and the lead for a new 
interagency CVE Task Force that includes DHS, DOJ, the FBI, NCTC and 
other agencies.
    Funding is included in the President's budget request to support 
these counterterrorism efforts in the following key areas:
  --$2 billion requested in total grants funding will prepare State and 
        local governments to prevent, protect against, mitigate, 
        respond to, and recover from incidents of terrorism and other 
        catastrophic events. These funds also include Firefighter and 
        Emergency Management Performance Grants that support local 
        first responders in achieving their missions and $50 million 
        for Countering Violent Extremism grants for emergent threats 
        from violent extremism and from complex, coordinated terrorist 
        attacks.
  --$292 million sustains U.S. Customs and Border Protection (CBP) 
        targeting programs, which includes support for the National 
        Targeting Centers (NTC) for passengers and cargo. The NTCs 
        effectively target and interdict inadmissible high-risk 
        passengers, cargo and agriculture/bioterrorism threats before 
        reaching U.S. ports of entry. And, the newly established 
        Counter Network Program will expand CBP's partnerships to 
        exchange information and coordinate actions to identify, 
        disrupt, and dismantle illicit networks and associated 
        organizations.
  --$197.5 million to sustain inspection and enforcement efforts 
        abroad, which include the Immigration Advisory Program, created 
        by CBP in 2004 to prevent terrorists and high-risk or 
        improperly documented travelers from boarding commercial 
        aircraft destined for the United States. This investment also 
        funds preclearance operations. In addition to improving CBP's 
        ability to protect the American homeland by extending our 
        borders and preventing terrorists from gaining access to the 
        United States, preclearance relieves congestion at U.S. 
        ``gateway'' airports and opens up new destinations for 
        international flights.
  --$103.9 million to purchase radiological and nuclear detection 
        equipment, an increase of $14 million over funding appropriated 
        in 2016, enabling the proposed new CBRNE Office (a combination 
        of Office of Health Affairs and Domestic Nuclear Detection 
        Office) and the U.S. Coast Guard, CBP, and TSA, to keep U.S. 
        ports of entry safe and secure by detecting and interdicting 
        illicit radioactive or nuclear materials.
  --$81.9 million sustains the BioWatch program to provide detection 
        and early warning of the intentional release of select 
        aerosolized biological agents in more than 30 jurisdictions 
        nationwide.
  --$79.9 million sustains Infrastructure Security Compliance funding 
        to secure America's high-risk chemical facilities through 
        systematic regulation, inspection, and enforcement under the 
        authority of the Chemical Facility Anti-Terrorism Standards.
                           aviation security
    We are taking aggressive steps to improve aviation and airport 
security.
    Since 2014 we have enhanced security at overseas last-point-of-
departure airports, and a number of foreign governments have replicated 
those enhancements.
    As many of you know, in May of last year a classified DHS Inspector 
General's test of certain TSA screening at eight airports, reflecting a 
dismal fail rate, was leaked to the press. I directed a 10-point plan 
to fix the problems identified by the Inspector General. Under the new 
leadership of Admiral Pete Neffenger over the last 6 months, TSA has 
aggressively implemented this plan. This has included ``back to 
basics'' retraining for the entire TSO workforce, increased use of 
random explosive trace detectors, testing and re-evaluating the 
screening equipment that was the subject of the Inspector General's 
test, a rewrite of the standard operating procedures manual, increased 
manual screening, and less randomized inclusion in Pre-Check lanes. 
These measures were implemented on or ahead of schedule.
    We are also focused on airport security. In April of last year TSA 
issued guidelines to domestic airports to reduce access to secure 
areas, to require that all airport and airline personnel pass through 
TSA screening if they intend to board a flight, to conduct more 
frequent physical screening of airport and airline personnel, and to 
conduct more frequent criminal background checks of airport and airline 
personnel. Since then employee access points have been reduced, and 
random screening of personnel within secure areas has increased four-
fold. We are continuing these efforts in 2016. Two weeks ago TSA issued 
guidelines to further enhance the screening of aviation workers in the 
secure area of airports.
    I am particularly proud of the newly established TSA Academy housed 
by the Federal Law Enforcement Training Centers in Glynco, Georgia. All 
new TSOs are now receiving 2-week training on how to screen for 
threats. DHS has built a full-scale representation of an airport 
screening station for students to use as they are taught how to serve 
the traveling public, interpret x-ray machine images, and check bags 
for dangerous materials or weapons.
    In the President's fiscal year 2017 budget request, funding is 
included for aviation security in the following key areas:
  --$3.0 billion to support 42,848 Transportation Security Officers, an 
        increase of $26.9 million over fiscal year 2016, to ensure 
        effective screening operations while minimizing wait times.
  --$199.8 million for transportation screening technology, enabling 
        TSA to continue improving the capabilities of its checkpoint 
        screening equipment throughout almost 450 airports to better 
        protect against passenger-borne threats, an increase of $5 
        million.
  --$116.6 million to provide training for TSA screeners, which 
        supports an increase of $20 million for new basic training to 
        be provided at the TSA Academy located at the Federal Law 
        Enforcement Training Center in Glynco, Georgia.
  --$84.0 million for TSA's intelligence operations, an increase of 
        $2.0 million to expand the number of intelligences officers to 
        87 in frontline facilities that will enhance the effectiveness 
        of checkpoint security screening.
  --$815.3 million to support the continued deployment of Federal air 
        marshals, $10 million above the fiscal year 2016 levels. The 
        Federal Air Marshal Service (FAMS) has been subject to a hiring 
        freeze since 2011, and recently completed a new Concept of 
        Operations (CONOPS) detailing a new deployment strategy that 
        achieves optimal FAMS staffing to ensure its operations 
        mitigate the maximum risk as with other TSA aviation security 
        activities.
                             cybersecurity
    While counterterrorism remains a cornerstone of our Department's 
mission, I have concluded that cybersecurity must be another. Making 
tangible improvements to our Nation's cybersecurity is a top priority 
for President Obama and for me to accomplish before the next President 
is inaugurated.
    On February 9th, the President announced his ``Cybersecurity 
National Action Plan,'' which is the culmination of 7 years of effort 
by the administration. The plan includes a call for the creation of a 
Commission on Enhancing National Cybersecurity, additional investments 
in technology, Federal cybersecurity, cyber education, new cyber talent 
in the Federal workforce, and improved cyber incident response.
    DHS has a role in almost every aspect of the President's plan.
    As reflected in the President's 2017 budget request, we want to 
expand our cyber response teams from 10 to 48.
    We are doubling the number of cybersecurity advisors to in effect 
make ``house calls,'' to assist private sector organizations with in-
person, customized cybersecurity assessments and best practices.
    Building on DHS's ``Stop. Think. Connect'' campaign, we will help 
promote public awareness on multi-factor authentication.
    We will collaborate with Underwriters Laboratory and others to 
develop a Cybersecurity Assurance Program to test and certify networked 
devices within the ``Internet of Things.''--such as your home alarm 
system, your refrigerator, or even your pacemaker.
    Last year we greatly expanded the capability of DHS's National 
Cybersecurity Communications Integration Center, or NCCIC. The NCCIC 
increased its distribution of information, the number of vulnerability 
assessments conducted, and the number of incident responses.
    At the NCCIC, last year we built a system to automate the receipt 
and distribution of cyber threat indicators in near real-time speed. We 
built this in a way that also includes privacy protections.
    I have issued an aggressive timetable for improving Federal 
civilian cybersecurity, principally through two DHS programs:
    The first is called EINSTEIN. EINSTEIN 1 and 2 have the ability to 
detect and monitor cybersecurity threats in our Federal systems, and 
are now in place across all Federal civilian departments and agencies.
    EINSTEIN 3A is the newest iteration of the system, and has the 
ability to block potential cyber attacks on our Federal systems. Thus 
far E3A has actually blocked 700,000 cyber threats, and we are rapidly 
expanding this capability. About a year ago, E3A covered only about 20 
percent of our Federal civilian networks. In the wake of the OPM 
attack, in May of last year I directed our cybersecurity team to make 
at least some aspects of E3A available to all Federal departments and 
agencies by the end of last year. They met that deadline. Now that the 
system is available to everyone, 50 percent are actually online, 
including the Office of Personnel Management, and we are working to get 
all Federal departments and agencies on board by the end of this year.
    The second program, called Continuous Diagnostics and Mitigation, 
or CDM, helps agencies detect and prioritize vulnerabilities inside 
their networks. In 2015, we provided CDM sensors to 97 percent of the 
Federal civilian government. Next year, DHS will provide the second 
phase of CDM to 100 percent of the Federal civilian government.
    We have worked with OMB and DNI to identify the Government's high 
value systems, and we are working aggressively with the owners of those 
systems to increase their security.
    In September, DHS awarded a grant to the University of Texas San 
Antonio to work with industry to identify a common set of best 
practices for the development of information sharing and analysis 
organizations, or ISAOs.
    Finally, I thank Congress for passing the Cybersecurity Act of 
2015. This new law is a huge assist to DHS and our cybersecurity 
mission. We are in the process of implementing that new law now. Just 
last week, I announced that we issued guidelines and procedures, 
required by this law, providing Federal agencies and the private sector 
with a clear understanding of how to share cyber threat indicators with 
the NCCIC, and how the NCCIC will share and use that information. We 
issued these guidelines and procedures consistent with the deadline set 
by the new law.
    Funding is included for cybersecurity in the fiscal year 2017 
budget request in the following key areas:
  --$274.8 million for the Continuous Diagnostics and Mitigation 
        program which provides hardware, software, and services 
        designed to support activities that strengthen the operational 
        security of Federal .gov networks, an increase of more than 
        $170 million over the fiscal year 2016 enacted level.
  --$471.1 million sustains the EINSTEIN program, to continue to combat 
        intrusions, enhance information sharing, and deploy analytical 
        capabilities to secure the Federal civilian information 
        technology enterprise.
  --The fiscal year 2017 budget request sustains ICE and USSS resources 
        to combat cyber-crime and investigate cyber-criminals.
                      immigration/border security
    Immigration policy must be two sides of the same coin.
    The resources we have to enforce immigration laws are finite, and 
we must use them wisely. This is true of every aspect of law 
enforcement.
    With the immigration enforcement resources we have, ICE is focused 
more sharply on public safety and border security. Those who are 
convicted of serious crimes or who have recently been apprehended at 
the border are top priorities for removal. And we will enforce the law 
in accordance with these priorities.
    Accordingly, over the last several years deportations by ICE have 
gone down, but an increasing percentage of those deported are convicted 
criminals. And, an increased percentage of those in immigration 
detention, around 85 percent, are in the top priority for removal. We 
will continue to focus our resources on the most significant threats to 
public safety and border security.
    In furtherance of our public safety efforts, in 2014 we did away 
with the controversial Secure Communities program and replaced it with 
the new Priority Enforcement Program, or PEP. PEP fixes the political 
and legal controversies associated with Secure Communities and enables 
us to take directly into custody from local law enforcement the most 
dangerous, removable criminals. Since PEP was created, cities and 
counties that previously refused to work with Secure Communities are 
coming back to the table. Of the 25 largest counties that refused to 
work with ICE before, 16 are now participating in PEP. In 2016, we will 
work to get more to participate.
    And, because we are asking ICE immigration enforcement officers to 
focus on convicted criminals and do a job that's more in the nature of 
law enforcement, last year we reformed their pay scale accordingly. 
Now, the pay scale for these immigration officers is the same as other 
Federal law enforcement.
    We have also prioritized the removal of those apprehended at the 
border. We cannot allow our borders to be open to illegal immigration.
    Over the last 15 years, our Nation--across multiple 
administrations--has invested a lot in border security, and this 
investment has yielded positive results. Apprehensions by the Border 
Patrol--which are an indicator of total attempts to cross the border 
illegally--are a fraction of what they to use to be.
    In fiscal year 2014, overall apprehensions by the Border Patrol 
increased, as we saw a spike in the number of families and 
unaccompanied children from Central America during the spring and 
summer of 2014. That year the overall number of apprehensions was 
479,000. Across the Government, we responded aggressively to this surge 
and the numbers fell sharply within a short period of time.
    In fiscal year 2015, the number of those apprehended by the Border 
Patrol on the southwest border was 331,000--with the exception of 1 
year, the lowest since 1972.
    From July to December 2015 the numbers of migrants from Central 
America, especially families and unaccompanied children, began to climb 
again.
    In January I announced a series of focused enforcement actions to 
take into custody and remove those who had been apprehended at the 
border in 2014 or later and then ordered removed by an immigration 
court. I know this made a lot of people I respect very unhappy. But, we 
must enforce the law in accordance with our priorities.
    In January overall apprehensions by the Border Patrol on the 
southwest border dropped 36 percent from the month before. At the same 
time, the number of unaccompanied children apprehended dropped 54 
percent, and the number of those in families dropped 65 percent. So far 
in February, the numbers have remained at this decreased level. This 6-
week decline is encouraging, but it does not mean we can dial back our 
efforts. Traditionally, illegal migration increases in the spring. We 
will do all we can to prevent another summer surge in illegal 
crossings. We will continue to enforce the law consistent with our 
priorities for enforcement, which includes those apprehended at the 
border in 2014 or later.
    Then there is the other side of the coin. The new enforcement 
policy the President and I announced in November 2014 makes clear that 
our limited enforcement resources will not be focused on the removal of 
those who have committed no serious crimes, have been in this country 
for years, and have families here. Under our new policy, these people 
are not priorities for removal, nor should they be.
    In fact, the President and I want to offer, to those who have lived 
here for at least 5 years, are parents of U.S. citizens or lawful 
permanents residents, and who have committed no series crimes, the 
opportunity to request deferred action on a case-by-case basis, to come 
out of the shadows, get on the books, and be held accountable. We are 
pleased that the Supreme Court has agreed to hear the case of Texas v. 
United States, which involves the new deferred action policies we 
announced in November 2014.
    Our overall policy is to focus our immigration enforcement 
resources more effectively on threats to public safety and border 
security, and, within our existing legal authority, do as much as we 
can to fix the broken immigration system. We're disappointed that 
Congress has not been our partner in this effort, by passing 
comprehensive immigration reform legislation.
    Finally, we recognize that more border security and deportations 
may deter illegal migration, but they do nothing to overcome the ``push 
factors'' that prompt desperate people to flee Central America in the 
first place. We are prepared to offer vulnerable individuals fleeing 
the violence in Central America a safe and legal alternate path to a 
better life. We are expanding our Refugee Admissions Program to help 
vulnerable men, women and children in Central America who qualify as 
refugees. We are partnering with the U.N. High Commissioner for 
Refugees and non-governmental organizations in the region to do this as 
soon as possible. This approach builds on our recently established 
Central American Minors program, which is now providing an in-country 
refugee processing option for certain children with lawfully present 
parents in the United States.
    The President's fiscal year 2017 budget request includes the 
following key resources for immigration and border security:
  --$7.0 billion to fund the salaries and benefits of Border Patrol 
        agents and CBP officers. In fiscal year 2017, CBP plans to hire 
        up to 21,070 Border Patrol agents, a decrease of 300 from the 
        2016 enacted level, and 23,821 CBP officers.
  --$1.4 billion to enable U.S. Immigration and Customs Enforcement to 
        maintain nearly 31,000 detention beds for individuals 
        presenting a flight risk, a risk to public safety or national 
        security, or who are subject to mandatory detention.
  --$2.0 billion sustains the Coast Guard counter-drug and alien 
        migration interdiction operations. These intelligence-driven 
        mission activities are critical to disrupting Transnational 
        Criminal Organizations and securing the southern border.
  --$1.6 billion sustains the Coast Guard's ports, waterways, and 
        coastal security efforts. These include screening to ensure 
        unauthorized and illicit individuals do not gain access to, or 
        disrupt, key maritime transportation and commerce nodes. All 
        crew, passengers, and cargo of vessels over 300 tons are 
        screened prior to arrival in U.S. waters to mitigate potential 
        risks to our Nation.
  --$319 million, a decrease of more than $370 million, to cover the 
        costs associated with the temporary care and transportation of 
        up to 75,000 unaccompanied children, along with other resources 
        for the custody of adults with children who cross our borders.
  --$126.0 million for the Alternatives to Detention Program, an 
        increase of $12 million, to monitor 53,000 average daily 
        participants, including families, who may pose a flight risk 
        but who are not considered a threat to our communities. The ATD 
        program places low-risk individuals under various forms of non-
        detained, intensive supervision, which may include electronic 
        monitoring.
  --$347.5 million for the Criminal Alien Program, an increase of $7 
        million, to support ICE in the apprehension and removal of both 
        at-large and incarcerated convicted criminals. These resources 
        include funding for an additional 100 officers to support the 
        expanded implementation of PEP.
  --$268.4 million, an increase of $30 million that sustains the 
        increase of 311 attorneys in the fiscal year 2016 
        appropriation, for ICE's Office of Principal Legal Advisor, 
        which represents the U.S. Government in removal proceedings and 
        litigated over 400,000 immigration related cases in fiscal year 
        2015.
  --$355.7 million to maintain the necessary infrastructure and 
        technology along the Nation's borders to ensure CBP law 
        enforcement personnel are supported with effective surveillance 
        technology to improve their ability to detect and interdict 
        illegal activity in a safer environment. This represents a 
        decrease of $91 million from the substantial increase provided 
        in the fiscal year 2016 appropriation.
                                refugees
    We are doing our part to address the Syrian refugee crisis. USCIS, 
in conjunction with the Department of State, is working hard to meet 
our commitment to admit at least 10,000 Syrian refugees by the end of 
this fiscal year. We will do this by carefully screening refugees in a 
multi-layered and intense screening process involving multiple law 
enforcement, national security, and intelligence agencies across the 
Federal Government.
                             secret service
    Over the last year, Director Joe Clancy of the Secret Service has 
done a tremendous job reforming the agency, including hiring a chief 
operating officer from outside the Secret Service, altering the 
structure and management of the agency, ramping up efforts to hire new 
members of its workforce, and expanding training opportunities. In 2016 
we will continue to work on areas that still need improvement.
    The President's fiscal year 2017 budget requests $108.2 million to 
enhance White House security, an increase of $42 million, which 
includes support for the U.S. Secret Service's Operational Mission 
Support initiative to enhance protection at fixed and temporary sites 
and includes advanced protective countermeasures.
                            the coast guard
    With the help of Congress, in 2016 we will continue to modernize 
the Coast Guard fleet, including all major air and surface asset lines. 
We propose continuing these investments in the 2017 budget request, and 
we seek an additional $150 million for the design of a new polar-class 
icebreaker.
    Our fiscal year 2017 budget request includes $1.1 billion to 
support the Coast Guard's air and surface fleet recapitalization, to 
include $240.0 million for production of four fast response cutters; 
$130.0 million to convert Air National Guard C27J aircraft for Coast 
Guard use; $150.0 million for acquisition activities for a new polar 
icebreaker; and $100.0 million to complete evaluation of detailed 
design and long lead time material for the lead offshore patrol cutter.
                federal law enforcement training center
    Our fiscal year 2017 budget includes $243 million to support the 
Federal Law Enforcement Training Center's (FLETC's) mission. Since 
2012, FLETC has trained more than a quarter million Federal, State, and 
local officers and agents. At the same time, FLETC continually updates 
its curriculum to address the biggest challenges facing law 
enforcement, to include training for active shooter situations, cyber 
forensics, and human trafficking.
                  federal emergency management agency
    The Federal Emergency Management Agency (FEMA) continues to carry 
out its extraordinary responsibility of supporting the American people 
and communities to prepare for, respond to, and recover from various 
disasters. FEMA will continue to focus on efforts to enhance resilience 
and mitigation measures before disaster strikes, to prevent loss and 
save lives.
    Our fiscal year 2017 budget request supports the Disaster Relief 
Fund, grant programs, disaster preparedness plans, and training for our 
homeland security and law enforcement partners. This includes $6.7 
billion to sustain relief fund levels that provide immediate and long-
lasting assistance to individuals and communities stricken by 
emergencies and major disasters. Our 2017 budget request also includes 
$365.0 million for the Pre-Disaster Mitigation Fund and for flood 
hazard zone mapping. The administration is committed to helping 
communities take steps to protect themselves from extreme weather and 
other climate impacts. These investments build on recent progress and 
pursue strategies to build a more climate-resilient America.
                        lawful trade and travel
    We continue to promote lawful trade and travel. We will continue to 
pursue the President's United States-Mexico High Level Economic 
Dialogue and his Beyond the Border Initiative with Canada. We are 
implementing ``Single Window'' for international trade, which, by 
December 2016, will enable the private sector to use just one portal to 
transmit information to 47 Government agencies about exports and 
imports, thereby eliminating over 200 different forms and streamlining 
the trade process.
                               conclusion
    As I stated before, developing this budget request within the 
topline constraints of the bipartisan budget agreement of 2015 required 
difficult choices. But I am confident that the Department of Homeland 
Security will build upon the progress we have made over the past year 
and continue to fulfill our vital mission of keeping the homeland safe.
    I again thank you for the opportunity to speak here today and for 
your continued support of DHS.
    I look forward to your questions.

                          BUDGETARY PRIORITIES

    Senator Hoeven. Thank you, Mr. Secretary. And we will start 
with 5-minute rounds for the questions.
    Let us go right to the fee issue first. I do not think that 
that is likely to happen, that fee increase. That creates about 
$909 million that we are going to have to find in other areas. 
And I guess I would just start with your ideas in terms of 
prioritization as to how we should approach that.
    Secretary Johnson. Well, first of all, I do believe that a 
fee increase is wholly appropriate in connection with aviation 
security. To increase the fee to air passengers and to air 
carriers, I think, is appropriate, and I think it is worthwhile 
when you are talking about aviation security in particular.
    I understand the reality of the difficulty of doing that. I 
note that in connection with the Murray-Ryan budget deal in 
2013, the air passenger fee was increased from, I think, $5 to 
$5.60. So it is not impossible. And a lot of us believe that, 
when it comes to aviation security, an increase in the fees 
around air travel is appropriate.
    In terms of my priorities, they are reflected in the budget 
request, and they are reflected in my prepared statement. I do 
constantly think about adequate funding for aviation security, 
cybersecurity, recapitalization of our Coast Guard, adequate 
funding for all the things we need to do for the Secret 
Service, and adequate funding for our border security and 
immigration enforcement activities.
    In any budget discussion, you always have to be mindful 
about the longer term investments, too. We are working right 
now in a DHS headquarters that is, frankly, wholly inadequate 
for our mission. It was supposed to be temporary 12 years ago, 
and it is still there and we still work there, and there are 
huge, huge drawbacks to the ability of my leadership to conduct 
our oversight of a 225,000-person workforce in our current 
headquarters.
    We made an investment in St. Elizabeths, and the more we 
put into it now, the less expensive it will be and the less 
time it will take to eventually get there. I was pleased that 
in this year's budget, the Congress funded enough to finish the 
completion of the main building, and if we stay on track and we 
stay at the schedule reflected in this budget, we will actually 
get there sooner rather than later, and it is going to cost 
less and not more.
    But the immediate priorities are, as I have stated as part 
of this answer, sir, the long-term investments I really do 
believe we need to make in terms of the headquarters and the 
other things we need to do.
    Senator Hoeven. Senator Carper and others, and you as well, 
convinced me that DHS should stay on track to move to the new 
facility. You know, I thought that maybe we should use some of 
those funds in other areas, but I understand that you feel the 
new headquarters will generate both better results and cost 
savings over time. In talking to the authorizers, that was 
their opinion as well. Certainly, Senator Carper was 
influential in that discussion, and so we are trying to help 
with that investment. But we are going to be pressed in some 
areas on this budget, and so we really are going to have to 
work with you--to the extent you want to--on prioritizations.
    Another area where I see real pressure coming and, you 
know, we are going to have to do some reprioritization is in 
your detention beds because you are already running at a level 
where the funding in this budget would be below your current 
census. And I anticipate that your population will actually 
increase, not go down.
    Now, if you can convince me that somehow you are able to 
remove more of those individuals, that might be a cost savings, 
but in looking at your detention beds and family operations, 
you are not requesting funding at the level that your current 
census would require.
    Secretary Johnson. We have requested about 31,000 detention 
beds. I think it is important that we be able to transfer that 
funding from single adult to families as the need arises back 
and forth. At the time we made the request, we were dealing 
with an average detention capacity in fiscal year 2015 of about 
28,000. I would say today as I sit here we are at about 31,000.
    Senator Hoeven. Well, your average census right now is 
about 33,000 so----
    Secretary Johnson. That----
    Senator Hoeven [continuing]. If you are at 31,000 then it 
is down a little versus your current average.
    Secretary Johnson. I believe in fiscal year 2016 so far we 
are at about 33,000 overall. As I sit here right now, we are at 
about 31,000 today. That is the photograph today, the snapshot 
today.
    But I think that it is critical that we have some 
flexibility in terms of moving back and forth between 
families----
    Senator Hoeven. Right.
    Secretary Johnson [continuing]. And single adults. But I do 
think that the number we have submitted reflects hard choices, 
and also, frankly, it reflects what we think we need. And we 
ran at about 31,000 last year.

                  STATE AND LOCAL PREPAREDNESS GRANTS

    Senator Hoeven. And then to just kind of finish on this 
topic of budget concerns, the other area is FEMA State and 
local preparedness grants, a shortfall of about $560 million. 
So somehow we are going to have to, through flexibility and 
prioritization given the fees, with what you are going to need 
in detention beds and the FEMA grants, to me, that looks like 
the toughest part of making this budget come together----
    Secretary Johnson. Yes.
    Senator Hoeven [continuing]. And we welcome your input 
because we are clearly going to be working on that in terms of 
some reprioritization and trying to find some solutions. And so 
we will work with you, and again, any input you have that can 
help, we want to make sure----
    Secretary Johnson. Senator, without a doubt, this budget 
request reflects hard choices given the caps. And the way the 
2-year deal was structured, 2016 was a little better than 2017. 
We are now having to deal with----
    Senator Hoeven. Right.
    Secretary Johnson [continuing]. 2017.
    Senator Hoeven. Yes. This will be----
    Secretary Johnson. I----
    Senator Hoeven [continuing]. A tougher budget.
    Secretary Johnson. I am a strong believer in the usefulness 
and effectiveness of our grant money. I have seen it firsthand 
in active shooter training, in the ability to fund 
communications and surveillance equipment, and in the ability 
to fund overtime for police and firefighters. But again, this 
reflects hard choices. I am not as happy as I could be with how 
we can fund our homeland security activities, but we have got 
to live within that ceiling.
    Senator Hoeven. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    I would like to pick up on the preparedness grants issue, 
Mr. Secretary, because, as we are all well aware, it is those 
first responders who are on the front lines, whether it is 
firefighters, local law enforcement or emergency management 
officials who are usually dealing with disasters and potential 
security threats first. This budget, as I read it, cuts those 
State grants by about 57 percent, urban grants by 45 percent, 
transit grants by 15 percent, and port grants by 7 percent.
    Can you talk about how you came up with those figures and 
what rationale was used. What do we think the impact is going 
to be on the local level if we do in fact make the cuts that 
are proposed in this budget?
    Secretary Johnson. I will say a couple things, Senator. 
One, up until very recently, States and cities were limited to 
2 years in terms of their ability to spend the money. They 
would have 2 years to spend it. And I think you and I may have 
even had this conversation----
    Senator Shaheen. Yes.
    Secretary Johnson [continuing]. At one point.
    Senator Shaheen. We have had this issue.
    Secretary Johnson. I changed that policy to 3 years to make 
it a little more flexible so that States had more time and 
cities had more time to spend the money in year 1 and year 3. 
So that went into the thinking with respect to this grant 
proposal.
    The other thing again is this budget reflects hard choices 
to live within the caps that the Congress and the President 
have agreed to. Having said that, I do believe that Homeland 
Security grant-making is very, very important. Given how the 
global terrorist threat has evolved to include the threat of 
lone-wolf actors, small-scale attacks that involve mass 
shootings by one or two actors who were not previously on the 
radar and who are very often home-born or homegrown, local law 
enforcement has taken on much of our counterterrorism mission.
    I said at a graduation ceremony for 1,200 New York City 
police officers in December, the cop on the beat may be the 
first one to detect the next terrorist attack on the United 
States. And a lot of our grant-making is put to good use in a 
lot of police departments around the country.
    So at the end of the day, the appropriators will determine 
how best to come up with a budget within our caps. Grant-making 
is important.

                      COUNTERING VIOLENT EXTREMISM

    Senator Shaheen. Thank you. And you mentioned the potential 
of terrorist threats, the lone wolves. One of the things that I 
think is important in the budget proposal is the money that is 
appropriated for countering violent extremism, as I mentioned 
in my opening statement. I had the chance to question the 
Secretary of State yesterday about the efforts that State is 
doing on the same issue, to counter violent extremism. And I 
raised the program that started within DHS and how you all were 
coordinating those efforts.
    So I would ask you about how you envision the funds for CVE 
to be used and also if you could talk a little bit about how 
you see the coordination function working with State and DHS?
    Secretary Johnson. I think it is better than it was. We now 
have an interagency task force that includes the Department of 
State and the Department of Justice (DOJ). DHS is the lead in 
that task force, and I am sure there are other agencies 
involved. Senator, as you probably know, this is a personal 
mission of mine. I have spent a lot of time in Muslim 
communities in particular around the country on our CVE 
efforts. I think that domestically it is critical that we build 
bridges to a lot of communities, including Muslim communities, 
and I think we are doing that.
    I also think it is critically important that we provide 
resources at the local level to help communities to deal with 
the problem of individuals who may be turning toward violence. 
I heard that over and over again when I would do these visits, 
and so I was very pleased that Congress this year provided $50 
million for that purpose. I think that is a great thing. We are 
asking for $49 million for next year.
    And I am really pleased also that our CVE efforts are 
getting bipartisan support from Republicans and Democrats who 
appreciate the importance of this effort. There is a lot that 
the tech sector can do, which we have talked to them about to 
help amplify to counter the message of the Islamic State. That 
is not a Government mission. That is a private sector, tech 
sector mission. I see more and more of the tech sector getting 
involved in that, and so we want to help them partner with 
Muslim leaders and talking to philanthropies as well.
    But I do think that the grant money for CVE, which we have 
begun this year and we want to continue, has been and will be 
used very effectively. And the CVE effort, given how the global 
terrorist threat has evolved, is in my view as important as any 
other Homeland Security effort.

           STATE AND LOCAL PREPAREDNESS GRANTS: DISBURSEMENT

    Senator Shaheen. Thank you. If I could just do a follow-up, 
Mr. Chairman, even though my time is up because I think it is 
relevant to this issue. The funding that was awarded in 2016, 
my understanding is that it is not actually going to be out in 
communities and be disbursed until the end of the year at the 
earliest. Can you talk about why the additional funding is 
needed even though that money is still in the pipeline and has 
not been used yet?
    Secretary Johnson. Well, I suspect the answer is that 
because this is new money, it takes an effort to start up the 
process for the grant awards, grant applications, and so forth. 
And that is why you are probably hearing that we will not be 
able to distribute it until the end of the fiscal year. But I 
want to keep that pipeline going. I think this should not be a 
1-year-only deal. I think we need to keep at this, which is why 
we are asking for more money in 2017.
    Senator Shaheen. Thank you. Thank you, Mr. Chairman.
    Senator Hoeven. Senator Cochran.

                              BUDGET CAPS

    Senator Cochran. Thank you, Mr. Chairman.
    There are several areas, Mr. Secretary, where you have 
outlined previously some goals and ambitions for the 
Department. To what extent do you think this budget authority 
that you will be given by the Congress is sufficient? Is the 
administration's request sufficient in itself or do you have 
additions to make to those requests that have already been 
submitted?
    Secretary Johnson. I think that we have done the best we 
can do within the budget caps that we have to adequately fund 
our vital Homeland Security missions, which include aviation 
security, maritime security, cybersecurity, the Secret Service, 
and our other missions. There are some hard choices reflected 
in this budget, including decreases in current funding levels.
    I am pleased that the Congress is supporting the 
continuation of our efforts to recapitalize the Coast Guard. I 
am pleased that Congress this year is supporting our aviation 
security efforts. I want to more sharply focus on aviation 
security and double down on aviation security in particular. 
That is reflected in our budget request. And cybersecurity, of 
course, is a big issue, and so we are asking for increased 
levels of funding there. But overall, this request reflects the 
hard choices of living within the caps that we were given.

                  UNITED STATES SECRET SERVICE FUNDING

    Senator Cochran. What about traditional, I guess you would 
call it, frontline enforcement officials that are hired under 
the authorities that existed prior to the creation of the 
Homeland Security Act? To what extent do we need to take a 
fresh look at the Secret Service, for example? Are they being 
overworked? Are they stressed out? Do you have enough money to 
keep them adequately funded so their jobs that are very 
dangerous and very important to the security interests of our 
country are satisfied?
    Secretary Johnson. Chairman, as you know, over the last 
several years the Secret Service has had its challenges. And in 
December 2014 an independent panel of outsiders did take a 
fresh look at the Secret Service. They were asked some hard 
questions about training, about manpower, about culture, about 
management. They delivered some good recommendations, all of 
which or almost all of which we're following--and I have told 
the Director of Secret Service to implement.
    I would say the biggest challenge is the one that you 
mentioned, which is manpower and the opportunity to train. And 
so Congress has supported that effort with adequate levels of 
funding, and it is our job to make sure that hiring outpaces 
retirements and attrition. And that is something Director 
Clancy has been very focused on.
    We do need to be sure that the Secret Service is adequately 
funded. We are in a Presidential election year right now where 
four candidates are supported by the Secret Service, and at the 
end of the year, we are going to have another former President 
to take care of. So staffing, manpower is very important, and 
whenever I get together with Director Clancy, that is topic of 
conversation number one. And I am pleased that in this request 
and in this fiscal year's budget, the Congress has come through 
and supported the Secret Service in its efforts. It is our job 
to make sure that we invest and spend up to those levels, and 
that is what I want to be sure Director Clancy is doing.
    Senator Cochran. Very good. Thank you. We appreciate your 
service and all of those who work at the Department. There is 
no more important activity in my view that we face at the 
Federal level, and budgeting, trying to appropriate the dollars 
where they are needed the most to accomplish the very important 
responsibilities, activities of our service.
    Secretary Johnson. Thank you.
    Senator Cochran. Thank you. Thank you, Mr. Chairman.
    Senator Hoeven. Senator Murkowski.

                           POLAR ICEBREAKERS

    Senator Murkowski. Thank you, Mr. Chairman and Mr. 
Secretary. Thank you and welcome.
    As I mentioned, I would like to speak about where we are 
with the Coast Guard budget and, more specifically to that 
point, icebreakers and the Arctic. I think we recognize that, 
as an Arctic nation, we have certain responsibilities, 
obligations, and icebreakers are right up there. And when you 
have about 1\1/2\ and one is in Antarctica almost full-time, it 
is an imperative. And I am very pleased that the administration 
has acknowledged that in this year's budget. We have been 
working with you on this for a while, and so making sure that 
we have that support for not only moving towards an icebreaker 
but acceleration of bringing that icebreaker online, as the 
President has outlined, I think is critically important.
    You also know that I have been a staunch defender of the 
Coast Guard at all levels and in making sure that they have the 
assets they need to do the job. And so I want assurances from 
you, Mr. Secretary, that we do have adequate funding in this 
year's budget to ensure the President's deadline of awarding 
construction of this new icebreaker by 2020, while at the same 
time we are on track with keeping the national security cutter 
(NSC), the offshore patrol cutters (OPCs), and the fast 
response cutters (FRCs) acquisition programs on time and on 
budget because what I would hate to see is that we are 
sacrificing one at the expense of the other. We need both, and 
the recapitalization effort that you have spoken to is 
critically important for our country, so if you can speak to 
that.
    Secretary Johnson. The answer is yes----
    Senator Murkowski. Good.
    Secretary Johnson [continuing]. Both with respect to the 
current year and the request for the next year. I am very 
pleased that in our request there is $150 million for the 
design of the new icebreaker. As you know, because of the 
increasing commercialization in the Arctic and for national 
security reasons, we need a second heavy icebreaker beyond the 
Polar Star. We have the Polar Sea, which is not operational, 
and so we need a second heavy icebreaker in addition to the 
lighter ones we already have.
    Alongside of that, we are still continuing with the 
recapitalization of the FRCs, building more FRCs. In this 
budget request there is a request for four. We are moving 
forward with the offshore patrol cutter. I expect that we will 
make a selection for the contractor sometime this year. For the 
OPC, there is, I believe, $100 million to continue with that 
program. And as you know, this year we are tasked and given 
funding to build a ninth national security cutter.
    So all three of those programs continue and are moving 
forward. I think that is a good thing. And we have the money 
for the icebreaker. Some people are concerned that we might be 
moving too fast, but our goal----
    Senator Murkowski. They have not talked to me.
    Secretary Johnson. They have not talked to you. That was 
what I was met with at this morning's House Appropriations 
meeting. And we believe that we can stay on track and we should 
stay on track with respect to the $150 million this year so 
that we can begin production by 2020.

                     NINTH NATIONAL SECURITY CUTTER

    Senator Murkowski. Well, I appreciate that response, and 
know that you have got an ally in me in terms of how we can 
ensure people understand the imperative of building this out 
and doing it quickly. We recognize that it is expensive, but we 
also recognize that it is the Coast Guard's study that it be 
not just one icebreaker but there actually be three polar 
icebreakers and three smaller icebreakers. So making sure we 
have a trajectory going forward on that is going to be an issue 
for us as well.
    I want to switch now to the national security cutter 
program. You mention the approval to build out the ninth NSC, 
which for us from an Arctic perspective is absolutely key. We 
have seen national security cutters every season in the summer 
up in the Arctic as we are seeing different traffic, different 
folks poking around up there that you probably would not 
anticipate, and knowing that we have the capabilities of these 
NSCs out there is very critical.
    The question for you this afternoon is home-porting of this 
ninth national security cutter or even another NSC that is 
currently slated for elsewhere. I think we need to be looking 
to a home port that is closer to the Arctic. Right now, the 
closest is Alameda, California. It is a long haul from Alameda, 
California, to get up into the Arctic, into the Beaufort, into 
the Chukchi, into the areas in the gulf and the Bering Sea.
    So recognizing what is happening in the Arctic and Coast 
Guard's need for expanded presence, can you comment on the 
prospects for a national security cutter to be stationed in 
Alaska?
    Secretary Johnson. As you know, I am sure, Senator, we have 
a process within the Coast Guard that the Commandant runs for 
determining home ports. And we are a ways off from the 
completion of the ninth cutter, so it would probably be 
premature for me at this stage to comment on whether or not it 
should be ported in the Arctic region. But I certainly 
understand the concern, and I certainly understand that Alameda 
is a long way away from the Arctic region.
    Senator Murkowski. But you do recognize that Coast Guard's 
role, their mission truly has expanded dramatically as we are 
seeing greater activity within the Arctic region. As the 
Commandant has said, it is like discovering a new ocean, and 
the Coast Guard is charged with responsibility over that----
    Secretary Johnson. Yes.
    Senator Murkowski [continuing]. New ocean. So how we make 
sure that we can stage these critical assets in places where 
they can be most effective, most impactful is important. So I 
understand that there is a process, but I would also encourage 
you within the Department to look critically at the benefits of 
home-porting closer to where that activity is going to be.
    With that, Mr. Chairman, thank you for the extra time.
    Senator Hoeven. Thank you, Senator.
    Senator Cassidy.

           FEDERAL EMERGENCY MANAGEMENT AGENCY: FLOOD MAPPING

    Senator Cassidy. Thank you, Mr. Chairman.
    Secretary, a couple things: First, just a purely parochial 
issue, I have some folks I met with yesterday that are trying 
to set up a meeting with the folks at the FEMA headquarters 
regarding base flood elevations, flood maps, et cetera. Can my 
staff touch base with your staff to help arrange that meeting? 
They have been a little frustrated in doing so, so just trying 
to be----
    Secretary Johnson. Yes, sir.

                        CYBERSECURITY EDUCATION

    Senator Cassidy [continuing]. An intermediary for my 
constituents--thank you. I appreciate that.
    Secondly, to the point, your budget zeroes out the 
Cybersecurity Education Program, and every year our Committee 
puts it back in. And it seems like we have the better argument 
because in your testimony and elsewhere you mention the need to 
have better cybersecurity, which therefore of course suggests 
that we need a better trained workforce. And I happen to know 
that there is one in Shreveport that is actually making an 
attempt to diversify the children who are--or the kids--I am 
old enough that a 20-year-old is a kid--are involved in such 
programs. So just trying to get a sense of why you all do not 
have the same prioritization for cyber education as we.
    Secretary Johnson. Senator, I do agree that cyber education 
is important. That is reflected in the National Action Plan for 
Cybersecurity that the President announced 2 weeks ago. I would 
certainly prefer that we have more money for cyber education, 
but again, we have to live within the budget caps that have 
been agreed to between the Congress and the President. But I am 
agreeing with you in principle. I have been to some great cyber 
education institutions, including in your State, so I agree in 
principle with what you are saying. Unfortunately, this budget 
request reflects the hard choices we have got to live with, 
sir.

                            PRECHECK PROGRAM

    Senator Cassidy. You have mentioned the TSA and airport 
security. And obviously, I occasionally fly out of New Orleans, 
a big tourist city. There are going to be long lines in the 
non-TSA Pre3 (PreCheck). I am imagining that we are expecting 
longer lines. So I guess kind of a series of questions along 
this, to what degree can you all expand the use of the PreCheck 
or Trusted Traveler Program, number one? Number two, I signed 
up my daughter. She flies with me commonly, and I put her in 
Trusted Traveler, and she actually ends up not getting in that. 
For whatever reason, it is not on her ticket. The airline, when 
I complain, assures me that it is----
    Secretary Johnson. Trusted Traveler or TSA PreCheck?
    Senator Cassidy. She is in Trusted Traveler. Do I have a 
fundamental misunderstanding as to whether or not that would 
get her in the PreCheck line?
    Secretary Johnson. I think it is probably better to sign up 
for TSA PreCheck per se. I think that--I am not real sure. I 
can get back to you on that.
    Senator Cassidy. Please. Please.
    Secretary Johnson. Okay.
    [The information follows:]

    Answer. The Department of Homeland Security (DHS) has several 
trusted traveler programs that provide an improved passenger 
experience, while enhancing security and increasing systemwide 
efficiencies. The programs are customized based on travel needs and 
many of them have reciprocal benefits. There are a few ways for 
travelers to be selected for expedited screening at participating 
airport TSA Pre3 (PreCheck) lanes. For frequent travelers, membership 
in the TSA PreCheck Application Program or U.S. Customs and Border 
Protection's (CBP) Global Entry program, allows the traveler to obtain 
a ``PASSID,'' or ``known traveler number,'' for use in making airline 
travel reservations. The known traveler number identifies the traveler 
to TSA as an individual who has been determined to be sufficiently low-
risk and thereby eligible for participation in the program.
    Expanding the number of vetted travelers using TSA PreCheck lanes 
ensures that TSA can focus time and resources on higher risk and 
unknown passengers at security checkpoints while maintaining 
appropriate wait times in standard lanes with no loss of security 
effectiveness. Doing so ensures TSA's commitment to its role as a high-
performance counterterrorism organization and its ongoing support of 
the DHS mission to prevent terrorism.
    TSA PreCheck dedicated lanes currently operate at more than 160 of 
our Nation's airports and on the country's most heavily traveled 
airlines, including two foreign air carriers. Additionally, TSA 
provides some form of expedited screening to eligible travelers at many 
airports that do not have a dedicated TSA PreCheck lane.
    TSA continues to ensure that TSA PreCheck lanes are accessible to 
fully vetted trusted travelers; it continues to invest resources in 
marketing and branding to promote the TSA PreCheck Application Program 
and drive enrollment. For example, TSA continues to partner closely 
with airlines, stakeholders, major corporations, and travel companies 
to message the benefits of expedited screening and the TSA PreCheck 
Application Program. TSA also continues to drive awareness of the 
security effectiveness and time-saving advantages of TSA PreCheck 
through new advertising, including print and digital media, and the 
expansion of TSA PreCheck enrollment centers to more than 360 on- and 
off-airport locations, as well as critical partnerships with travel-
related companies such as H&R Block, American Express, and Citibank. 
Each of these initiatives is aimed at making the TSA PreCheck brand 
widespread and enrollment more convenient.
    Travelers who are members of a DHS trusted traveler program and who 
find that they have not received TSA PreCheck on their boarding passes 
should confirm that the known traveler number was entered correctly 
into the reservation system. To ensure that travelers receive 
appropriate consideration for TSA PreCheck, individuals who are a 
member of TSA PreCheck Application Program or a CBP program (Global 
Entry, SENTRI, or NEXUS), must ensure that they enter the personal 
information on their flight reservation exactly as it appears in the 
documentation on file with DHS. For example, when making an airline 
reservation, travelers must submit their name, date of birth, and 
gender exactly as it was provided at the time of enrollment (or as 
updated if a correction/update has been made). In addition, travelers 
must enter into the ``known traveler number'' field of their 
reservation, the known traveler number or PASSID that they were 
assigned when approved for the program. In many situations, it is a 
simple case of submitting a nickname instead of a full name, the 
transposing of letters or numbers in the known traveler number, or 
overlooking inclusion of the known traveler number altogether that 
prevents a passenger from receiving a TSA PreCheck-eligible boarding 
pass for a flight. For example, a passenger may enter the date of birth 
as 25/12/1981 rather than 12/25/1981, enter the name as Gerry instead 
of Gerald, or simply forget to include the known traveler number for a 
booking with one airline because they had previously provided it for a 
booking with a different airline.
    In addition, it may be helpful for travelers who make their 
reservations through the use of a frequent flyer account, a travel 
agent, or through an online travel Web site, to confirm that their 
personal information (name, date of birth, gender, and known traveler 
number) is correctly on file within each system and a match to the 
information on file in the trusted traveler program. Members of a DHS 
trusted traveler program who are unsure of how their information is 
shown on file may contact the respective help center. Members of the 
TSA PreCheck Application Program may submit an online inquiry by 
visiting TSA's Universal Enrollment Services customer service at 
https://universalenroll.dhs.gov/and selecting the ``Contact Us'' tab, 
or by calling (855) 347-8371. Travelers who are enrolled in a CBP 
trusted traveler program (Global Entry, NEXUS, or SENTRI), should 
contact CBP through its information center at https://help.cbp.gov/app/
home, via e-mail at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9af9f8eab4fdf5ffe9b4e9efeaeaf5e8eedafef2e9b4fdf5ec">[email&#160;protected]</a>, or by telephone at (855) 
USE-GOES [(855) 873-4637].
    Any member of a DHS trusted traveler program may call the TSA 
Contact Center at 1-866-289-9673 for assistance regarding any 
difficulties experienced with TSA PreCheck, to include nonreceipt of 
TSA PreCheck. Participating airlines now print a TSA PreCheck indicator 
on boarding passes to help passengers recognize that they are eligible 
for TSA PreCheck for that flight. Travelers who print a boarding pass 
and do not see the TSA PreCheck indicator are encouraged to call the 
TSA Contact Center to determine if their information was properly 
transmitted to TSA for TSA PreCheck consideration.

    Senator Cassidy. So just on a personal level I know that it 
is a great program, but not many people do because when I go 
through New Orleans, I am in the line but there are 100 people 
who are not. Is there a way that we can expand that? And I have 
one other question after that just to kind of get your thoughts 
there.
    Secretary Johnson. Well, first of all, we are expanding it 
in the sense that last year, 1.5 million new people signed up 
for TSA PreCheck compared to 579,000 the year before. So the 
more people sign up for TSA PreCheck, the more they have the 
occasion to get on that line.
    To be quite honest with you, the administrator of TSA and I 
are making a renewed effort at aviation security. That has 
meant longer wait times at airports for those in the longer 
lines because of our renewed push on security and because of 
the travel volume. There are more people traveling right now 
and less managed inclusion. What that means is we are no longer 
pulling people at airports out of the longer line and putting 
them in the shorter line; that is, the TSA PreCheck line. We 
are doing less of that now because we want to put more people 
through the more focused aviation security efforts.
    The Inspector General's report that was unfortunately 
leaked last summer was a bit of a wakeup call for TSA, and I 
made sure it was a wakeup call for TSA. And so the new 
administrator, with my support, is very focused on aviation 
security.

                  AVIATION SECURITY: RANDOM SCREENING

    Senator Cassidy. Then let me go to my question, which is I 
will be in line at DCA or New Orleans and mainly DCA, and a TSA 
screener comes out with a little pad and randomly wipes the 
hand of somebody--you know, there are 100 people waiting and 
randomly wipes the hand. There is no way that this is risk-
based screening. It is entirely random.
    Now, I have to know, once I put a question to TSA and did 
not get an answer, I would like to know how many of those kind 
of random screenings actually result in someone with an intent 
to bring an explosive on board getting caught? I am guessing it 
is about zero.
    And another time I was at DCA about to board the plane 
beyond the security checkpoint, a TSA screener came up, pulled 
someone aside totally randomly as best I could tell--she looked 
more like a grandmother than she looked like anything else--and 
kind of goes through her stuff. And I am thinking if we are 
having a hard time with number of employees and want to expand 
the workforce, it seems better to focus it on more of a risk-
based program as opposed to let us expand this kind of random 
sort of--we have 200 people waiting; let us grab three of them. 
Now, we are going to grab four because we have expanded it.
    I would like to know whether or not you have ever caught 
anybody with that. And secondly, why do we not become more 
risk-based as opposed to winning the lottery, if you will, by 
occasionally getting the one person?
    Secretary Johnson. Well, very definitely, part of aviation 
security is random screening, randomization. That is inherent 
in aviation security. But there are also aspects of aviation 
security that do focus on individuals on the basis of 
behavioral observation and on the basis of things about the 
nature of where they are going, where they have been, whether 
they fit a certain profile or not. But very definitely, part of 
it is random.
    Senator Cassidy. Now, I would love to see a frequency 
distribution of the degree to which the random checks have 
actually nabbed somebody who would not otherwise have been 
nabbed. For me, it seems almost kind of--again, here is a lady 
who is, say 65 years old is the last woman I saw, just kind of 
there looking like a tourist. Oh, excuse me, ma'am, we have got 
to wipe your hands. And----
    Secretary Johnson. Well, first of all, I would be happy to 
have our TSA leadership come by----
    Senator Cassidy. That would be great. I would like that.
    Secretary Johnson [continuing]. Talk to you more in detail 
about this. Random screening serves two purposes. One, you may 
catch somebody doing something, and also it serves as a 
deterrent. But I will be happy to send our TSA leadership by 
to----
    Senator Cassidy. Wonderful.
    Secretary Johnson [continuing]. Meet with you for a greater 
in-depth conversation about this.
    Senator Cassidy. Thank you. I yield back.
    Senator Hoeven. The randomization, really it is a 
deterrent, is it not? The reason you do it is as a deterrent?
    Secretary Johnson. That is----
    Senator Hoeven. I suppose once in a while----
    Secretary Johnson [continuing]. Very definitely an aspect 
of it.
    Senator Hoeven [continuing]. You get somebody, but 
primarily, I think, it is a deterrent----
    Secretary Johnson. Yes.

                   AVIATION SECURITY: USE OF CANINES

    Senator Hoeven [continuing]. That is my understanding.
    One thing I think Senator Cassidy brought up last time and 
I do see more of it is use of canines, which I think is very 
effective.
    Secretary Johnson. Yes.
    Senator Hoeven. What is the status in terms of using 
canines?
    Secretary Johnson. We are using more canines both with 
respect to passenger screening and with respect to cargo 
screening at and around the airplanes before they take off. 
That is something that we have begun in--well, that we have 
stepped up in recent months. In some respects, there is no 
better technology than a canine.
    Senator Hoeven. It strikes me as a very effective deterrent 
because, you know, the dogs can walk around, past people that 
are in line, that are coming in line, that are, you know, even 
just moving around the airport. It seems to me that people 
notice it. The dogs' capabilities are remarkable and I think it 
is a very effective deterrent and would certainly encourage 
further use and anything we can do----
    Secretary Johnson. Thank you.

                      FILLING PERSONNEL VACANCIES

    Senator Hoeven [continuing]. To help support that.
    I would like to ask you about filling your personnel 
vacancies. You know, in a number of areas, Customs and Border 
Protection, Secret Service, cyber, a number of these areas you 
not only have some attrition issues, but you are just not able 
to hire enough people to fill the number of slots that you have 
requested and that you feel you need. So what steps are you 
taking? How is that coming in terms of filling some of these 
areas?
    Secretary Johnson. Well, let me begin with cyber. As you 
know, there is a lot of competition for good cyber talent. I am 
competing with other agencies, and I am competing with the 
private sector. I appreciate that in cyber legislation passed 
in 2014, Congress gave us greater ability to hire cyber talent, 
and so I have charged NPPD with ensuring that we do that, and I 
keep after them to make sure that we are doing that.
    Senator Hoeven. Are they telling you they have a reasonable 
pay/benefits package that they can attract the talent they 
need? Do they feel that that is an issue or do they feel they 
have a package that works?
    Secretary Johnson. Kind of all of the above. I mean, it is 
tough to hire good cyber talent, without a doubt, but we have 
additional hiring authorities, and we are hiring at a pretty 
rapid rate. But there are vacancies that we can fill now that 
we have additional vacancies to fill. So it is an effort where 
we continually push our people to work at this.
    With regard to the Border Patrol and some of our other law 
enforcement components, we have had a problem with getting 
people vetted fast enough, passing the polygraphs and so forth. 
So there has been an issue with hiring up to our authorities 
when it comes to the Border Patrol force. I think we are now at 
21,070, which is about where the CBP leadership believes that 
it needs to be, but that was with a lot of effort to get there.
    Senator Hoeven. So----
    Secretary Johnson. And then Secret Service I talked about 
earlier.
    Senator Hoeven. Yes. But there, it is an attrition issue--
--
    Secretary Johnson. Yes.
    Senator Hoeven [continuing]. I think, as much as anything. 
And the other thing is length of hiring. I think you have got 
about a 500-day average in terms of filling some of these 
backlog areas. So do you feel the changes you have been able to 
make will address it satisfactorily? Do you have the 
flexibility you need?
    Secretary Johnson. I feel----
    Senator Hoeven. Do you have what you need to try to make 
the changes you want to make?
    Secretary Johnson. The honest answer to your question, 
Senator, is that with the help of Congress, we have been able 
to make some changes that are positive in this area, but it is 
a work in progress and it is challenge. I keep after my 
component leadership to make sure that we do as much as we can 
there.

       BORDER PATROL: FUNDING FOR AGENTS, SURVEILLANCE TECHNOLOGY

    Senator Hoeven. Border Patrol, do you have what you need in 
Border Patrol in people and technology? What else would be 
helpful in terms of people and technology for the Border 
Patrol?
    Secretary Johnson. In terms of Border Patrol agents, we 
are, in the view of our Border Patrol leadership, at about 
where we need to be, 21,070. In terms of technology, we could 
always use more investments in surveillance technology. I think 
that is reflected in our budget request, mobile surveillance in 
particular.
    Senator Hoeven. And in the budget, do you feel you have 
adequate funding for your surveillance technology? I have been 
down there, I have seen it, I think it is effective. I agree 
with you there should be more--what is your feeling on the 
budget number----
    Secretary Johnson. Within the confines of the ceiling we 
have to work with, my answer is yes.
    Senator Hoeven. Do you have enough flexibility between 
budget lines as far as personnel such that if you are hiring 
personnel faster in one area and you are not able to get them 
in another area, do you have enough ability to move funds or is 
that an issue for you?
    Secretary Johnson. Probably--I am going to say probably 
not. My CFO says I have it right, probably not. Yes.

                           WHITE HOUSE FENCE

    Senator Hoeven. Yes. Okay. That is my sense, too.
    Well, Secret Service I guess we have covered pretty well. 
What about the White House fence? Remember, we had started down 
the trail of replacing the White House fence, but I do not see 
a request here to finish out replacing the White House fence.
    Secretary Johnson. Yes, we put in the temporary fence a 
couple of months ago, which I believe has deterred fence-
jumping. There was one incident that occurred after that that I 
know about. And longer term, we need to make the investment in 
a higher, better fence. But the fence we put in last year I 
think has served as a deterrent for the short term.
    Senator Hoeven. Okay. Senator Shaheen.

                           DRUG INTERDICTION

    Senator Shaheen. Thank you.
    In my opening statement I talked about the challenges we 
are facing in New Hampshire and so many other States with 
respect to the heroin and opioid epidemic. We are losing a 
person a day in New Hampshire from overdose deaths, this is 
about three times as many people as who die in traffic 
accidents in New Hampshire.
    Last spring, Senator Hoeven and I had the opportunity to go 
down to our southern border and meet with Customs and Border 
Protection in Laredo and watch some of the dogs in action as 
they were trying to find drugs being smuggled across the 
border. And I remember very vividly the conversation with CBP 
where they talked about drugs coming across the southern border 
and going up the interstates, up 95, which is how they get to 
New Hampshire, and then up 35 across the middle of the country.
    Obviously, we have got to confront this crisis on many 
fronts. One piece of it is the interdiction of drugs and the 
challenges that CBP and Coast Guard are facing as they look at 
how to keep those drugs from coming across the border. So can 
you talk first about whether there are other things DHS can do. 
You just mentioned that you think we are about right in terms 
of CBP personnel. Can you talk about what additional role they 
might be able to play in interdiction and whether the budget is 
there to support that role?
    Secretary Johnson. Well, I also believe there is a role for 
Homeland Security Investigations (HSI)----
    Senator Shaheen. Absolutely. I should have mentioned that.
    Secretary Johnson [continuing]. And HSI is part of an 
interagency task force with DOJ, components of DOJ to deal with 
the heroin epidemic in New Hampshire and elsewhere. We have had 
considerable success at the border with interdiction, but there 
is the interior effort as well. We have stepped up our interior 
enforcement efforts with HSI, and as you know, the Coast Guard 
does a terrific job at sea. One of our national security 
cutters you may know, the Stratton, went out on a 4-month 
mission off the coast of Central and South America, and in just 
4 months itself seized more than $1 billion in illicit 
narcotics, including two cartel submarines. I did not know 
cartels had submarines until last year.
    But the heroin epidemic is very real, and it has become an 
interagency coordinated task force mission.
    Senator Shaheen. And so when you say it has become an 
interagency mission, can you talk a little bit about what that 
means? How are you working across agencies within Homeland 
Security and with other parts of----
    Secretary Johnson. I----
    Senator Shaheen [continuing]. The Government. How are DHS 
and Justice working on this issue?
    Secretary Johnson. I know HSI has been involved in this 
effort with the Drug Enforcement Administration (DEA), the 
Federal Bureau of Investigation (FBI), and that has been a 
relatively recent phenomenon. And I am happy to get you more 
details and, you know, a briefing. We can have our law 
enforcement personnel----
    Senator Shaheen. That would be great.
    Secretary Johnson [continuing]. Come in and talk to you 
about it.
    Senator Shaheen. I would very much appreciate that.
    Secretary Johnson. Sure.

                     SPECIAL IMMIGRANT VISA PROGRAM

    Senator Shaheen. Another issue that I have been working on 
for a very long time is special immigrant visas. You are 
probably aware that you and Secretary Kerry received a letter 
from Senators McCain and Reed, the chair and ranking member of 
the Armed Services Committee, as well as myself about the 
Special Immigrant Visa program and the recent interpretation of 
language in the Defense authorization bill for this year that 
changed the interpretation of how those visas would be awarded. 
And I would hope that you would consult with State on this 
issue.
    I had a chance to raise this concern with Secretary Kerry 
yesterday at the Foreign Relations Committee hearing, and he 
was very responsive to the idea that perhaps they needed to 
take another look at the interpretation because certainly, I 
think, for those of us who worked on that Defense authorization 
bill, our understanding of what that language meant was 
different than what State and DHS have interpreted.
    So can you tell me whether you are willing to take another 
look at that and whether you have been consulting with State in 
doing that?
    Secretary Johnson. I have read your letter. I thought it 
was a good letter. Hats off to whoever wrote the letter. I 
thought it made some good points. It is a legal question which 
we are having our lawyers look at. For myself, I do believe 
that an expression of congressional intent from Congress 
directly on a point is very relevant. So we have the letter and 
we are looking at the question.
    Senator Shaheen. Thank you. I appreciate that. And as we 
all know, the attorneys can interpret the law in many different 
ways. I agree with you; I think congressional intent is very 
important here. So I appreciate that. Thank you.
    Senator Hoeven. Senator Cochran.

                 UNMANNED MARITIME SYSTEMS AND SENSORS

    Senator Cochran. Mr. Chairman, my wide-awake staff has 
decided I need to ask one more question. Mr. Secretary, as your 
department continues to analyze the potential applications and 
performance of using unmanned aerial systems in its operations, 
would you provide this subcommittee with an inventory of 
existing unmanned maritime systems and sensors that you are 
researching?
    Secretary Johnson. Yes, sir. We will.

    [The information follows:]

    Answer. U.S. Customs and Border Protection's (CBP) Air and Marine 
Operations currently operates nine MQ-9 (Predator B) unmanned aerial 
systems, of which three aircraft are configured with the SeaVue 
maritime radar system. The systems are used jointly by CBP and the 
United States Coast Guard (USCG).
    USCG's Research and Development Center owns a small complement of 
32 small, Group I, unmanned systems for further research and 
development initiatives of small unmanned aerial systems and payloads. 
Each of these small unmanned aerial systems is equipped with a video 
imagery system. Funded in fiscal year 2015 and fiscal year 2016, the 
Coast Guard also is executing the acquisition of Group II/III unmanned 
aerial systems for the national security cutter, with an anticipated 
initial operating capability employment late in the calendar year or 
early next calendar year. USCG's sensor requirement for the initial 
capability is an electro-optical/infrared system. Future sensor 
capabilities being researched for a later phase of the acquisition 
include collision avoidance capability, air and surface search radar, 
and an automated system to augment pilots' ability to detect surface 
targets with electro-optical/infrared sensors.
    The DHS Science and Technology Directorate (S&T) currently is not 
operating any unmanned aerial systems on its own. It is partnering with 
multiple unmanned aerial systems equipment manufacturers that have 
enrolled a project sponsored by S&T. The Robotic Aircraft for Maritime 
Public Safety project provides a forum for small unmanned aerial system 
suppliers to evaluate their equipment under a wide variety of simulated 
but realistic and relevant USCG scenarios. This project is studying 
fixed- and rotary-wing aircraft with the objective of creating a 
knowledge resource database of test and evaluation reports, user 
testimonials, and guidelines for use by USCG. The Robotic Aircraft for 
Maritime Public Safety project is a joint program between S&T and the 
USCG Research and Development Center and is conducting four testing 
evolutions.

    Senator Cochran. Thank you. Thank you, Mr. Chair.
    Senator Hoeven. Pretty good.
    Senator Cochran. How about that?
    Senator Hoeven. Just like that.
    Senator Cochran. I got a crackerjack staff.
    Senator Hoeven. Cut right to it. Could you also provide us 
with that for not just maritime but on the border----
    Secretary Johnson. Yes.
    Senator Hoeven [continuing]. Unmanned aircraft systems 
(UAS) as well?
    Secretary Johnson. Yes.
    [The information follows:]

    Answer. CBP's Air and Marine Operations currently operates nine MQ-
9 (Predator B) unmanned aircraft systems outfitted with either the 
VADER for over-land missions or the SeaVue for maritime mission sets. 
On one of its aircraft, CBP is researching and testing the Due Regard 
Radar system, a sensor designed to locate air traffic and avoid 
collision in a nonterrestrial radar environment. Also, CBP is 
evaluating software upgrades of existing sensor payloads in current 
inventory and the integration of Minotaur, a common operating 
configuration, to improve existing payload architecture.
    In addition to CBP's MQ-9 unmanned aircraft, the U.S. Border Patrol 
has nine Instant Eye small unmanned aerial system kits. Each kit 
consists of two air platforms and one Ground Control Station. These 
platforms currently are not deployed for operational use, pending 
coordination with the Federal Aviation Administration.
    S&T currently is not operating any unmanned aerial systems on its 
own. It is partnering with multiple unmanned aerial systems equipment 
manufacturers that have enrolled in two projects sponsored by S&T. The 
Robotic Aircraft for Public Safety project provides a forum for small 
unmanned aerial system suppliers to evaluate their equipment under a 
wide variety of simulated but realistic and relevant first responder, 
law enforcement, and border security scenarios. The current program 
(Robotic Aircraft for Public Safety II) evaluations incorporate U.S. 
Border Patrol-specific scenarios (day and night) to refine small 
unmanned aerial systems requirements and concept of operations. This 
project is studying fixed- and rotary-wing aircraft with the objective 
of creating a knowledge resource database of test and evaluation 
reports, user testimonials, and guidelines for use by CBP and the first 
responder community. Ten Robotic Aircraft for Public Safety Phase II 
testing evolutions are being conducted from January to July 2016.
    The Robotic Aircraft for Maritime Public Safety project has similar 
objectives and focuses on the maritime domain and its public safety 
community. The Robotic Aircraft for Maritime Public Safety program is a 
joint program between S&T and the USCG Research and Development Center 
and is conducting five testing evolutions.
    The U.S. Secret Service currently does not operate unmanned aerial 
systems for official protection or other operations. The limited 
inventory of five small unmanned aerial systems now on hand was used 
within the last year only to test a technology meant to counter small 
unmanned aerial systems being used to threaten U.S. interests/persons.

    Senator Hoeven. Thank you.
    Senator Shaheen. And you will share that with the 
Committee, I assume?
    Senator Hoeven. Yes, for the Committee.
    Secretary Johnson. Okay.

                            BORDER SECURITY

    Senator Hoeven. In fiscal year 2015 we saw a reduction in 
the number of unaccompanied alien children versus fiscal year 
2014, but now in fiscal year 2016, the numbers are coming back 
up. So if you would talk about what you are doing to stem that 
flow.
    Secretary Johnson. Yes, Senator. This is a report that is 
issued daily for me with these numbers, these migrant numbers 
on the southwest border. It is one of the first things I look 
at when I come to work in the morning, along with my daily 
intelligence. And, as you noted, in fiscal year 2015 we were 
down around 331,000, which is the second-lowest apprehension 
number since 1972, 2014 was 479, 2015 was 331. In the fall, the 
beginning of fiscal year 2016, we began to see the numbers rise 
again, and they were reaching by December levels that looked 
like they were approaching the summer spike we had in 2014.
    So January 4 I issued a statement laying out our 
comprehensive plan for dealing with it, which included more 
focused interior enforcement against those, directed at those 
who were part of families who had been ordered removed by an 
immigration court, whose appeal time had run, and who had no 
pending asylum claim. I stated that publicly and announced that 
publicly.
    The effort has not been limited to just the one weekend. It 
has continued. Since the beginning of the year, the numbers 
have gone down reflected on this chart right here. The blue 
line is up to date, and the spike that you see there is the end 
of last year. The numbers now in January and February are down 
around where they were this time last year. So January and 
February of this year look a lot like January and February of 
last year, but we are concerned about the traditional seasonal 
increase that always----
    Senator Hoeven. Right.
    Secretary Johnson [continuing]. Occurs. And so I think a 
big part of this and a big part of border security is our 
enforcement priorities, and those apprehended at the border are 
priority one for enforcement, along with the others in that 
category. It is not real popular. Some people are very unhappy 
with that, but I think it is fundamental to our border security 
efforts. We have to mean what we say when we say we are going 
to send you back if you come here illegally.
    So this is something--and that includes people who are part 
of families, and that includes unaccompanied children, 
consistent with our laws. So that is where we are.
    Senator Hoeven. I do not suppose you have any February 
results? Yes, it does appear that the actions you took made a 
significant difference from December to January----
    Secretary Johnson. I----
    Senator Hoeven [continuing]. And so a continuation----
    Secretary Johnson. I do not know cause and effect----
    Senator Hoeven [continuing]. Of that activity would be 
important. I am just wondering if you have any data that 
indicates in February----
    Secretary Johnson. February----
    Senator Hoeven [continuing]. More or less continuing----
    Secretary Johnson [continuing]. Has increased slightly from 
about--from January. The last projection I saw for the month of 
February has us at about 24,000 apprehensions for the month, 
which is considerably lower than December, and it is about what 
January looked like. So I do not know whether the enforcement 
actions are cause and effect, but the numbers are in fact lower 
for apprehensions by the Border Patrol. So----
    Senator Hoeven. Are you continuing to develop your metrics 
and then also to release those, including some of the metrics 
on ICE? I know we provided additional funding in the 2016 
appropriation to ICE for some of this operational data 
reporting. So can you kind of just give us an update there in 
terms of reporting on data from----
    Secretary Johnson. Yes.
    Senator Hoeven [continuing]. ICE and other border security 
entities.
    Secretary Johnson. Senator, as you and I have discussed, I 
think I need--I believe we need to have better, clearer metrics 
for measuring border security. When I came to this department 
in 2013, the Border Patrol had a method for measuring total 
attempts to cross the border illegally, but I do not think it 
is very sophisticated. And so we have had an outside federally 
funded research firm that we are working with to develop more 
sophisticated ways for measuring total attempts to cross the 
border and more sophisticated ways for measuring how we are 
doing in terms of border security sector by sector. This is a 
project that I want to complete before I leave office 11 months 
from now.
    Senator Hoeven. I guess I am over my time. I better turn to 
Senator Shaheen.

                       DISASTER MITIGATION GRANTS

    Senator Shaheen. Thank you.
    I only have one really additional area of questioning, and 
that has to do with the disaster mitigation efforts. As I am 
sure you are aware, last year, the administration requested 
significant additional funding for mitigation grants. And so I 
was surprised this year to see the dramatic reduction in the 
request for those programs. This is an area that I think really 
does pay big dividends with the increased natural disasters 
that we are seeing. This is one way to reduce those costs. We 
should encourage State and local efforts in the mitigation area 
if they think, at the Federal level, we are going to be real 
partners in doing this.
    I was surprised to see that those programs are reduced 
pretty significantly in this budget. I wonder if you could talk 
to what the rationale is for that. I understand the hard 
choices piece, but this is one that seems to me it pays big 
dividends at the other end in terms of cost savings.
    And how do we develop a culture that is more focused on 
avoiding disasters and trying to mitigate for disasters as 
opposed to just waiting for things to happen and then 
responding?
    Secretary Johnson. Well, my CFO can correct me, but I 
believe that what we have asked for is essentially the same as 
what we received last year? Is that correct? Excuse me. Sorry. 
Okay. All right. Okay. You are correct. This year, we 
prioritized flood mapping over the pre-disaster assistance 
because it was something we thought we needed to do within the 
confines of what we have had to work with. That was how we saw 
the priorities that were necessary for this year, in this 
constrained year, flood mapping, which is something that 
Members of Congress have talked to me a lot about.
    Senator Shaheen. And certainly I agree that that is an area 
that we need to support. Are there other agencies within the 
Federal Government where you see the ability to partner in ways 
that encourage a continuation of mitigation efforts and trying 
to support prevention as opposed to waiting for disasters?
    Secretary Johnson. Yes. I do not want to speculate but I 
think the short answer to your question is yes. I can imagine 
other agencies that should be supporting and contributing to 
this effort.
    Senator Shaheen. And so are there efforts underway to 
explore those kinds of partnerships? I mean, DOT is one that 
comes to mind obviously but other areas that work on 
infrastructure projects----
    Secretary Johnson. Well----
    Senator Shaheen [continuing]. Or places where it seems to 
me that we should be thinking about how we all work together to 
get the best bang for the buck?
    Secretary Johnson. Well, if they are not, they probably 
should be so that is my best answer.
    Senator Shaheen. Okay. Thank you.
    Thank you, Mr. Chairman.
    Senator Hoeven. Just a couple to finish up, Mr. Secretary, 
again, you have been very patient with your time. We appreciate 
it. Senator Cochran, did you have any----
    Senator Cochran. No.

                         BIOMETRIC EXIT SYSTEM

    Senator Hoeven. All right, sir. Biometric exit system, why 
is it taking as long to develop and implement, and could we do 
it with biographic first, then biometrics if biometric is the 
problem? An exit tracking system is obviously very important to 
get a handle on visa overstays. We have been pretty good 
improving biographic exit, too, but need biometric too. So you 
could comment on both.
    Secretary Johnson. Senator, the visa overstay report that 
we just issued is based on biographic exit, so somebody is not 
counted as a visa exit unless we charted it by biographic exit. 
That was how the report was based.
    Senator Hoeven. Right. And that is primarily----
    Secretary Johnson. I do----
    Senator Hoeven [continuing]. For travelers, right? But that 
does not cover students, guest workers, and others is my 
understanding.
    Secretary Johnson. Nonimmigrant B1/B2 visas. At this point 
it would be very difficult to track visa--at this point it will 
be very difficult to track student visa overstays because the 
amount of the permitted stay is often difficult to know as 
opposed to a hard-and-fast date.
    With regard to biometric exit, I have asked my staff the 
same question. Why is it taking so long? This year, we received 
money, 10-year money from Congress in fee increases to pay for 
biometric exit. So I have said to my folks, okay, we have the 
money; now, let us have the timetable. And so what I have told 
my folks is that we want to begin implementing biometric exit 
as soon as 2018 at airports.
    Senator Hoeven. Do you have a realistic or what you think 
is a realistic timeline to roll this out at this point, or are 
you still developing that? I mean, should we be thinking by 
2018 it would be ubiquitous in terms of airport----
    Secretary Johnson. I told my folks that we----
    Senator Hoeven [continuing]. International airports?
    Secretary Johnson [continuing]. Need to--we have pilot 
programs right now----
    Senator Hoeven. Yes.
    Secretary Johnson [continuing]. For biometric exit.
    Senator Hoeven. Right. I have seen----
    Secretary Johnson. I have told my folks I want to see this 
begin in the implementation at airports by 2018. So if I 
believe that my folks take me seriously when I tell them to do 
things, and I do--sometimes, I have to ask two or three times--
I believe that this deadline will be met.

                        CYBERSECURITY TECHNOLOGY

    Senator Hoeven. Last question I have relates to cyber.
    Secretary Johnson. They have met all my deadlines when it 
comes to cybersecurity so----
    Senator Hoeven. Well, and that is where I want to finish up 
is on the cyber piece, and there--we have talked about a number 
of different things, but where I really want to go is with the 
technology. With EINSTEIN, with some of these technology 
systems you have, do you think you have what you need? Are you 
able to develop what you need? I mean, this is such a dynamic, 
fast-moving area. You know, the technology advances every 
single day.
    Secretary Johnson. Yes.
    Senator Hoeven. And you are facing a new threat every 
single day. So do you feel that you have enough--though 
obviously, there is a major commitment in funding in this 
budget. But talk for a minute about the technology, including 
this issue of law enforcement getting into phones and so forth 
or getting help, the help you need from the private sector, 
whether it is getting into an encrypted phone or something 
else.
    Secretary Johnson. Well, let me focus first on the EINSTEIN 
system because we are making a huge investment in EINSTEIN, 
EINSTEIN 1, 2, and 3. And there are always skeptics that say--
whether it is a cybersecurity system or a fighter jet, there 
are always people that say that I can build it bigger and 
better, and you do not have the latest and best.
    The conversations that I have had with our cybersecurity 
experts tell me that EINSTEIN remains a good investment because 
of its unique capability to rely upon classified information 
for detecting and blocking cyber intrusions, and, more 
importantly, because it is a platform for future technology, 
the EINSTEIN 3A system, which we will have in place for the 
entire Federal .gov civilian world by the end of this year, and 
which can block known bad actors and known bad signatures. It 
is also a platform for technology to block suspected bad actors 
in the future. And so once that system is in place, it will 
serve as a platform for the future technology I think we need 
to have to block the suspected bad actor.
    I believe that we should and we can stay the course with 
our current investments, but we need to build on that and, when 
the time is right, add to it, replace it, improve it, but have 
the ability to do so. And I think we can with the EINSTEIN 
system, which is sort of the centerpiece of our Federal 
cybersecurity efforts.
    The cybersecurity bill that passed last year I think is a 
terrific bill. I am very pleased with the bipartisan support we 
got from Congress on a very complex issue, which gives us 
additional authorities and gives the private sector the 
immunities that they say they need to share with us cyber 
threat indicators. That was a really, really big thing that for 
a long time we heard from the private sector: they had to have 
immunities before they would be sharing cyber threat indicators 
with us. We now have that in place.
    So I think we are moving in the right direction. I think 
that by the time this administration leaves office and I leave 
office, we will have made tangible improvements in 
cybersecurity.
    Senator Hoeven. Well, and that leads right to this whole 
issue of getting assistance from the private sector, Apple, the 
encrypted phones, and so forth. Give us your take on how that 
should be approached and----
    Secretary Johnson. I think we need----
    Senator Hoeven [continuing]. What can and cannot be done.
    Secretary Johnson. I think we need to be in a different 
place from where we are now in response to the demands of the 
marketplace. A lot of tech companies have driven deeper and 
deeper toward encryption. That has in fact hampered Federal, 
State, and local law enforcement in their ability to track and 
detect potential terrorist plots and crime, and we are not just 
talking about Federal crime, any State crime that involves a 
communication. I hear this from the district attorney of New 
York County, for example, Cyrus Vance. He is very big on the 
encryption issue.
    So I think we need to move the pendulum in a different 
direction. It has gone pretty far in one direction. I think we 
need to move it back a little bit to account for law 
enforcement and national security needs.
    Exactly how we accomplish that with the tech sector is a 
harder, longer conversation to have. This latest issue in 
California, I fully support the Government's position. I have 
read the briefs, I understand the need, and I am fully 
supportive of the Government's position there.
    I know from talking to the FBI Director that, in a number 
of instances, Federal law enforcement gets good cooperation 
from a lot of companies in that sector on a case-by-case basis. 
This is one where we just did not agree. But I think there 
needs to be a larger national conversation to address this 
issue because I do not like where we are right now.
    Senator Hoeven. Is there anything else that you want to 
bring up that we have not asked you in the course of this 
hearing regarding your budget?
    Secretary Johnson. I am sure that this Committee 
appreciates the fundamentally different place we are in right 
now in terms of the global terrorist threat. It is more 
complicated. It involves smaller scale attacks by terrorist-
inspired actors here in the homeland. People ask me what keeps 
you up at night? One of the things that keeps me up at night is 
that we could have another attack in a community like 
Chattanooga, Tennessee, or San Bernardino at a moment's notice 
by somebody who was not previously on our radar. And I think 
this is why our CVE efforts are so important.
    We are in a fundamentally different place now, and just on 
my watch in national security since 2009 I have seen that 
evolution from taking the fight to AQAP and al-Shabaab and core 
AQ overseas, to now dealing with a very different type of 
threat that includes people who live among us. And that 
requires a whole-of-government effort and that requires--where 
it counts we build the right bridges, and that requires 
supporting local law enforcement in their efforts, too. So----

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Hoeven. Again, thank you, Mr. Secretary, for being 
here and to you and all your people for all the hard work they 
do in this very important area.
    This will conclude our hearing today. The hearing record 
will remain open for 2 weeks from today. Senators may submit 
written questions for the record, and we ask that the 
Department respond to them within a reasonable length of time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department subsequent to the hearing:]
               Questions Submitted to Hon. Jeh C. Johnson
              Questions Submitted by Senator Thad Cochran
    Question. I noticed that this year's budget request reflects the 
need for more realistic virtual ranges to perform larger, more high-
fidelity exercises in the cyber domain. The Committee recognized the 
value of developing and utilizing these cyber ranges in the recently 
enacted appropriations bill, which provided funding for this effort. 
However, I believe that the Department can more effectively allocate 
its resources by using existing laboratories and universities to assist 
in this mission.
    Along these lines, do you have plans to follow the Center of 
Excellence model and establish a Center on cybersecurity research and 
education?
    Answer. The Department of Homeland Security (DHS) recognizes the 
importance of cybersecurity research to the Nation. Because of its 
ubiquitous nature, the need for cybersecurity research is larger than 
the resources for a single Science and Technology Directorate (S&T) 
Center of Excellence would be able to address. As the Center of 
Excellence model currently exists, one Center of Excellence would be 
inadequate to address all but the most targeted cybersecurity problems 
related directly to DHS missions. Moreover, Center of Excellence 
funding would be dwarfed by other existing and more substantial 
investments in the cyber domain by S&T's Cyber Security Division, the 
DHS National Protection and Programs Directorate (NPPD), other Federal 
agencies outside DHS, and the private sector.
    S&T's current approach is, when applicable, to have its current 
Centers of Excellence address cybersecurity issues across their 
respective specialties, which, by design, are linked to major DHS 
mission areas. For example, S&T's Food Protection and Defense Institute 
conducts food industry cybersecurity research, the Maritime Security 
Center investigates maritime cybersecurity, and the Critical 
Infrastructure Resilience Institute researches ways to make the 
business case for cyber-physical system investments. S&T's Centers of 
Excellence also have research planned into ways to detect and counter 
effectively transnational cyber-criminal activities that affect DHS 
missions. S&T, through its Office of University Programs, has 
coordinated these initiatives relating to the intersection of 
cybersecurity and physical infrastructure to identify lessons learned, 
best practices, and opportunities for knowledge transfer among sectors.
    Moving forward, S&T will continue to coordinate work at relevant 
Centers of Excellence between its Office of University Programs and 
Cyber Security Division, as well as with NPPD and other non-S&T 
cybersecurity stakeholders. In doing so, this network of universities 
will continue helping the Department to meet its cybersecurity research 
and education needs.
    Question. There is concern regarding the workforce that will 
populate the National Bio and Agro-Defense Facility, when it opens in 
2022. I am told that the required training time for a qualified 
veterinarian is 7 years. What are you doing to ensure a qualified 
veterinary workforce is in place when this facility opens?
    Answer. DHS is coordinating with its partners in the U.S. 
Department of Agriculture's (USDA) Animal and Plant Health Inspection 
Service and Agriculture Research Service to develop an integrated 
operational standup program that reflects the staffing, equipping, and 
laboratory operating requirements for the National Bio- and Agro-
Defense Facility to reach full operational capability by December 2022.
    One of the central components of the integrated DHS-USDA plan 
addresses staff training requirements. This portion of the standup 
planning effort was the basis for preliminary discussions to identify 
specialized educational requirements to support National Bio- and Agro-
Defense Facility veterinary staffing planning. Our integrated planning 
also includes the transition of research programs and veterinary 
research staff from the Plum Island Animal Disease Center to Manhattan, 
Kansas, at the appropriate time during standup. On the basis of the 
team's planning, we are confident that when the DHS-USDA team begins 
recruiting to fill remaining professional veterinary staff positions, 
the country will have an adequate pool of highly qualified candidates 
interested in joining the National Bio- and Agro-Defense Facility's 
research team.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
    Question. How many total icebreakers does the Coast Guard need?
    Answer. The long-term plan for polar icebreaking capability in the 
Coast Guard is still being assessed based on mission needs and future 
demand. Current efforts have focused on acquiring a minimum of two 
heavy icebreakers. The Coast Guard will work with the Department, the 
President, and Congress to meet the Nation's polar icebreaking needs.
    Question. Is the Department planning outyear budgets to fund these 
additional ships?
    Answer. The Coast Guard's fiscal year 2017-2021 Capital Investment 
Plan reflects the Department of Homeland Security (DHS) and Coast Guard 
plan to fund the first polar icebreaker. Funding needed for additional 
icebreakers falls outside of the 5-year planning window of the Capital 
Investment Plan and will be programmed, as appropriate, in future 
budget cycles.
    Question. Does the Department plan to release a Capital Investment 
Plan (CIP), showing the funding streams needed in future years to meet 
these goals? When?
    Answer. The Coast Guard Capital Investment Plan table was delivered 
to Congress on March 16, 2016, with the full report delivered April 13, 
2016. The Capital Investment Plan reflects funding for the acquisition 
of a new polar icebreaker. The funding profile assumes appropriation of 
the full $150 million in fiscal year 2017, with plans to acquire long 
lead time material in fiscal year 2019/2020, followed by the first 
phase of production in fiscal year 2021.
    Question. Does the Department, at a minimum, plan 1-for-1 
replacement of seven fast response cutters for seven 110-ft patrol 
boats currently homeported in Alaska? If not, how many does the 
Department plan to station in Alaska and where?
    Answer. No, the fleet recapitalization plan does not constitute a 
1-for-1 replacement of the 110-ft. patrol boats in Alaska with 154-ft. 
fast response cutters. Rather, six fast response cutters will replace 
the seven 110-ft. patrol boats currently in Alaska.
    Not only does the fast response cutter provide greater operating 
capability than the 110-ft. patrol boat, it operates at 2,500 hours per 
year. This results in a net increase in total patrol boat operating 
hours of 2,400 hours per year in comparison to the seven 110-ft. patrol 
boats, which operated at 1,800 hours per year.
    Three fast response cutters are planned to be homeported in the 
Sector Anchorage area of responsibility; the remaining three are 
planned for the Sector Juneau area of responsibility.
    Question. The State of Alaska legislature enacted a statute 
prohibiting cooperation with the Federal Government in implementation 
of REAL ID. However, the State has also made changes to its driver's 
licenses and its issuance processes to improve their security. Alaska's 
application for a reprieve on REAL ID was granted through October 2016. 
Will the Alaska driver's license no longer being accepted as a valid 
form of personal identification to board a flight upon expiration of 
the extension?
    Answer. The REAL ID Act authorizes DHS to provide States with 
additional time to become compliant ``if the state provides adequate 
justification for noncompliance.'' DHS is continuing to provide 
extensions, as warranted. Extensions are granted for a maximum of 1 
year and may be renewed, provided there is adequate justification for 
continued noncompliance. As part of this process, DHS considers the 
extent to which the State has demonstrated progress in meeting any 
outstanding requirements to become compliant.
    DHS is providing more than 2 years advance notice of enforcement of 
REAL ID with respect to domestic air travel to allow ample time for all 
States to achieve compliance, or for potential air travelers to acquire 
an alternate form of identification if their State does not comply with 
REAL ID.
    Starting January 22, 2018, travelers who do not have a license from 
a compliant State or a State that has been granted an extension will be 
asked to provide alternate acceptable identification. However, 
passengers with driver's licenses issued by a State that is compliant 
with REAL ID (or a State that has been issued an extension) still will 
be able to use their driver's licenses or identification cards.
    Starting October 1, 2020, travelers will need to present a REAL ID-
compliant license or another acceptable form of identification for 
domestic air travel.
    Question. What is an acceptable alternative to the REAL ID?
    Answer. Starting January 22, 2018, passengers who have driver's 
licenses issued by a State that is not yet compliant with REAL ID and 
that has not received an extension will need to show an alternative 
form of acceptable identification for domestic air travel. The 
Transportation Security Administration (TSA) accepts, and will continue 
to accept, other forms of identification documents, including:
  --U.S. passport;
  --U.S. passport card;
  --DHS trusted traveler cards (Global Entry, NEXUS, SENTRI, FAST);
  --U.S. military identification (Active Duty or retired military and 
        their dependents, and Department of Defense civilians);
  --Permanent resident card;
  --Border crossing card;
  --DHS-designated enhanced driver's license;
  --Airline- or airport-issued identification (if issued under a TSA-
        approved security plan);
  --Federally recognized, tribal-issued photo identification;
  --HSPD-12 PIV card;
  --Foreign government-issued passport;
  --Canadian provincial driver's license or Indian and Northern Affairs 
        Canada card;
  --Transportation worker identification credential;
  --Immigration and Naturalization Service Employment Authorization 
        Card (I-766).
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
    Question. Given the threat to the Nation's cybersecurity, the 
private sector and State and local governments must take aggressive 
measures to secure systems along with the Federal Government. What is 
included in the fiscal year 2017 request to ensure appropriate Federal 
support is provided to private sector partners, including 
infrastructure operators, and State and local governments?
    Answer. The fiscal year 2017 President's budget invests more than 
$19 billion in overall Federal resources for cybersecurity, a roughly 
35-percent increase from fiscal year 2016, to support a broad-based 
cybersecurity strategy for securing the U.S. Government, enhancing the 
security of critical infrastructure and important technologies, 
investing in next-generation tools and workforce, and empowering 
Americans. This funding will support the Cybersecurity National Action 
Plan, which aims to increase the level of cybersecurity in both the 
Federal Government and the country's digital ecosystem as a whole. The 
budget also sustains funding for U.S. Immigration and Customs 
Enforcement and the U.S. Secret Service to combat cybercrime and to 
investigate cyber criminals.
    Recognizing that critical infrastructure in the United States is 
owned by both public and private entities, the Department of Homeland 
Security's National Protection and Programs Directorate (NPPD) 
collaborates with Federal, State, local, tribal, territorial, 
international, and private-sector entities. In particular, NPPD helps 
the private sector and State, local, tribal, and territorial 
governments to protect themselves by promulgating best practices, 
serving as a hub for cybersecurity information sharing, and providing 
incident response assistance. The fiscal year 2017 budget advances 
these critical capabilities by enhancing the Department's ability to 
share cyber threat indicators in real time per the Cybersecurity Act of 
2015, increasing the number of cybersecurity security advisors to 
provide companies and State, local, tribal, and territorial governments 
with risk assessments and guidance, and by providing resources to 
secure the control systems that operate much of the Nation's privately 
owned critical infrastructure.
    Additional details regarding the President's Cybersecurity National 
Action Plan can be found at: https://www.whitehouse.gov/the-press-
office/2016/02/09/fact-sheet-cybersecurity-national-action-plan. The 
fiscal year 2017 budget justification materials for the Department of 
Homeland Security can be found at: https://www.dhs.gov/dhs-budget.
    Question. How much is requested in the fiscal year 2017 budget 
through FEMA for Urban Search and Rescue Response System?
    Answer. The fiscal year 2017 President's budget requested 
$27,513,000 for the Urban Search and Rescue Response System.
    Question. Congress provided the Secret Service with $84.5 million 
in fiscal year 2016 to implement the Protective Mission Panel findings 
to address known requirements (such as a replacement of the existing 
fence) and emerging potential threats (such as those posed by drones). 
Mr. Secretary, are we making timely strides in addressing known and 
emerging threats to the White House complex--not just the perimeter 
fence, but also items like drones?
    Answer. The U.S. Secret Service is making steady progress in 
addressing both known security requirements as well as emerging threats 
at the White House Complex. A portion of the $84.5 million provided in 
fiscal year 2016 for Protective Mission Enhancements is being allocated 
to projects that, once completed, will improve physical security at the 
White House Complex and will improve operational communications 
consistent with the recommendations of the Protective Mission Panel. 
These measures include: (1) the permanent replacement of the White 
House perimeter fence; (2) the 2-year effort to upgrade the radios and 
associated infrastructure at the White House Complex; (3) critical 
upgrades to the Joint Operations Center, the Secret Service's command 
and control location that monitors security functions at the White 
House Complex; and (4) the refurbishment and/or replacement of 
uniformed division officer booths and vehicle gates, as well as 
enhancements to classified programs at the White House Complex.
    The Secret Service also is actively developing technical 
countermeasures to address emerging threats at the White House Complex. 
In particular, the agency is engaged in efforts to detect and 
neutralize unauthorized or illicit unmanned aircraft systems, a term 
that encompasses drones. These efforts will provide the agency with 
unmanned aircraft systems detection and mitigation capabilities within 
the District of Columbia and at protective sites outside of the 
National Capital Region. In fiscal year 2014, $2.6 million was 
allocated to unmanned aircraft systems countermeasure development, and 
an additional $10.7 million was allocated in fiscal year 2015. In 
fiscal year 2016, the Secret Service utilized $870,000 in Protective 
Mission Enhancement funding and $6.8 million in Operational Mission 
Support funding for unmanned aircraft systems countermeasures. With 
respect to other emerging threats, the Secret Service's fiscal year 
2017 budget request includes $108.18 million to support the Operational 
Mission Support program. The fiscal year 2017 request includes $7.4 
million to continue investments in counter-unmanned aircraft systems 
investments ($1.6 million in Protective Mission Enhancements and $5.8 
million in Operational Mission Support).
    Question. When I met with the Secret Service Director earlier this 
month, he briefed me that the White House fence replacement will be 
delayed due to new information and requirements to address 
unanticipated threats. While I understand that the fence construction 
will take longer than anticipated and that this subcommittee made $8.2 
million for the fence available for 2 years, are you comfortable with 
requesting only $50,000 for the fence in the budget before us today 
especially as people continue to jump the current fence?
    Answer. The $50,000 in the fiscal year 2017 request is intended to 
address projected maintenance and repair costs for the interim fence 
enhancements installed last year. These repairs could include fixing 
cracks to welds and spike or spike fastener replacement. The requested 
amount should be sufficient to address those anticipated upkeep 
expenses.
    In addition, the Secret Service continues to make progress on the 
permanent fence enhancements. In May 2015, the Secret Service 
participated in a study with the National Park Service that provided 
several options for the development and structural redesign of the 
current White House fence. After the study was completed, the Secret 
Service identified its preferred fence option, and in September 2015, 
awarded a contract through the National Park Service to an 
architecture/engineering firm to begin the design process. The Secret 
Service and National Park Service expect to bring the initial design 
concepts to the Commission on Fine Arts and the National Capital 
Planning Commission in April through June of this year.
    The Secret Service is committed to implementing a permanent upgrade 
to the White House fence on a priority basis. Pending approval of all 
the stakeholders involved, the Secret Service expects to use the 2-year 
funding appropriated in fiscal year 2016 to complete the fence design 
and to begin the acquisition and procurement process in late fiscal 
year 2017. This will allow for award of a phased construction contract 
to begin building usable segments of the permanent fence in fiscal year 
2018. Additional funding will be required in fiscal year 2018 and 
beyond to complete the phased construction of the fence around the 
White House Complex, the Eisenhower Executive Office Building, and the 
Treasury Building.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                              preclearance
    Question. One of the major obstacles to cross-border travel today 
is CBP passenger screening. Over the past couple years, DHS has made 
great progress in the construction of preclearance facilities. I am 
pleased that the United States and Canada have signed an agreement to 
expand preclearance operations. This new agreement has been needed 
before discussions regarding the creation of a preclearance facility at 
Montreal's Central Station, and the reestablishment of train service 
between Vermont and Montreal. The agreement is also a positive step 
toward improving the travel experience in air service between 
Burlington International Airport and Toronto City Airport. And, last 
week, I joined with Senator Murkowski to introduce S. 2612--the 
Promoting Travel, Commerce and National Security Act of 2016--which 
will enable the full implementation of this agreement.
    Secretary Johnson, I understand fully implementing the United 
States-Canada agreement is a priority of yours. Can I count on your 
commitment in expeditiously naming preclearance expansion facilities in 
Canada once the agreement is ratified by the Canadian Parliament and 
the U.S. Congress passes related implementing legislation?
    Answer. Canada and the United States signed the Agreement on Land, 
Rail, Marine, and Air Transport Preclearance on March 16, 2015. During 
Prime Minister Trudeau's visit on March 10, 2016, our two countries 
announced our intention to support the legislation necessary to bring 
that agreement into force. Along with Congress' introduction of the 
Promoting Travel, Commerce, and National Security Act of 2016 (S. 2612/
H.R. 4657), the Government of Canada intends to introduce the necessary 
legislation this spring.
    In addition, the United States and Canada have agreed, in 
principle, to expand preclearance to the following sites: Billy Bishop 
Toronto City Airport, Quebec City Jean Lesage International Airport, 
Montreal Central Station, and Rocky Mountaineer. Expansion can begin 
only after the new agreement enters into force and must be contingent 
upon each site meeting all terms and conditions of that agreement, 
including recovery of costs for the deployment of U.S. Customs and 
Border Protection (CBP) officers at new preclearance locations in 
Canada.
    The Department of Homeland Security (DHS) is fully prepared to 
support the expansion of preclearance facilities in Canada once the 
Canadian Parliament ratifies the agreement and the U.S. Congress passes 
legislation granting appropriate civil extraterritorial jurisdiction to 
U.S. courts. The agreement's intention is to further facilitate the 
flow of travel between the United States and Canada, and to that end, 
support the expansion of programs that ease passenger screening for 
those traveling from Canada. Once the requirements of the agreement are 
met, it will provide strong protections for both countries' interests 
and serve to strengthen our strong binational relationship.
    Question. There are many committed partners on both sides of the 
northern border spending time and resources in getting new sites ready 
for preclearance expansion. Unfortunately, CBP will only respond to 
requests for technical advice, stalling progress. Is DHS willing to 
work with new site applicants and CBP in moving forward with design 
approvals as Congress works to pass implementing legislation?
    Answer. On March 10, 2016, Secretary Johnson and Public Safety 
Minister Goodale signed a statement of intent that formalizes the 
agreement in principle to expand preclearance to the following four 
locations: Billy Bishop Toronto City Airport, Quebec City Jean Lesage 
International Airport, Montreal Rail, and Rocky Mountaineer. Expansion 
is contingent upon each site meeting all terms and conditions of the 
2015 Land/Rail/Marine/Air Preclearance Agreement, including recovery of 
eligible costs for the deployment of CBP officers at new preclearance 
locations in Canada and the development of necessary infrastructure 
requirements and operational protocols for each location. As part of 
the Statement of Intent, DHS agreed to co-chair the Preclearance 
Consultative Group with the Department of State, Public Safety Canada, 
and Transport Canada. The United States and Canada plan to convene the 
Preclearance Consultative Group on May 10, 2016, in Quebec City, 
Canada, to discuss implementation issues at the expansion locations and 
the potential for expansion to other sites in both countries over the 
medium and long terms. This group will cover a range of implementation 
challenges, including continuous law enforcement presence, exploratory 
discussions on the requirements for cargo preclearance, technical 
design standards, service levels, vetting, and other related items.
                        northern border staffing
    Question. I understand that CBP has been working hard to fill the 
2,000 positions for which Congress allocated funding over 2 years ago. 
However, I am frustrated that maintaining full staffing along the 
northern border remains a struggle. What are the Department's barriers 
to filling these positions?
    Answer. As the Nation's largest Federal law enforcement 
organization, CBP faces a number of challenges in recruiting and 
retaining well-qualified employees. This is not a phenomenon unique to 
CBP as other Federal, State, and local law enforcement organizations 
must address similar challenges. Factors that make recruitment and 
retention a challenge for CBP include:
  --Staffing Requirements.--Achieving and maintaining the staffing 
        floors set by Congress for CBP's law enforcement occupations 
        requires annually attracting and evaluating tens of thousands 
        of applicants to replace losses resulting from retirement and 
        other attrition.
  --Pay/Compensation Flexibilities.--CBP competes with other law 
        enforcement and Federal agencies, as well as with the private 
        sector, for the same pool of applicants. Often, these 
        organizations have greater compensation flexibilities to 
        attract and retain employees.
  --Security Requirements.--CBP's rigorous hiring standards limit the 
        pool of suitable candidates. All of CBP's positions require a 
        background investigation. Applicants for law enforcement 
        occupations also must complete a statutorily mandated polygraph 
        examination.
  --High Frontline Hiring Process Discontinuation Rate.--Applicants for 
        CBP law enforcement positions must complete a series of 
        assessments. A high percentage of applicants do not 
        successfully complete the hiring process, including many who 
        voluntarily withdraw from the process.
  --Limited Supply of Candidates.--Strict suitability standards, 
        position requirements, and public scrutiny of law enforcement 
        officers are factors that contribute to a smaller pool of 
        qualified and suitable candidates for CBP's law enforcement 
        occupations.
  --Staffing Hard-To-Fill and/or Remote Locations.--Due to the nature 
        of CBP's work along the border, many of the duty locations are 
        located in geographically remote areas. Staffing these and 
        other hard-to-fill locations is critical to meeting operational 
        requirements.
    Many of the ports along the northern border are hard to fill 
because they are in remote areas with few amenities and resources, such 
as housing, schools, medical facilities, entertainment options, spousal 
employment. CBP continues to streamline the hiring process to attract 
well-qualified candidates to fulfill mission-critical roles, and is 
pursuing a comprehensive, multi-pronged approach to address particular 
staffing challenges. Among other things, since August 2015, CBP has 
included in its officer entry-level vacancy announcement a recruitment 
incentive offer in certain northern border locations to attract 
applicants for CBP officer positions in locations that are experiencing 
difficulties attracting applicants and achieving their authorized 
staffing levels.
    Question. What resources does the Department need to fully meet 
these northern border staffing needs?
    Answer. As of February 20, 2016, 95 percent of the authorized CBP 
officer positions on the northern border were filled. However, there 
are key ports, especially in North Dakota and Maine, that could benefit 
from greater flexibility in CBP's ability to use recruitment and 
retention incentives for current employees.
    Although recruitment incentives can be used to recruit new 
employees into the Federal Government and retention incentives can be 
used to encourage current Federal employees to remain in the Federal 
Government, the current framework does not permit CBP to offer current 
employees incentives to stay in hard-to-fill locations. The added 
ability to offer a retention incentive so that an employee does not 
leave the northern border position would allow CBP to better recruit 
and retain current employees on the northern border.
    Question. The Vermont port of entries received 10 additional 
positions, 5 in Highgate and 5 in Derby. Unfortunately, due to 
attrition and the slow pace of new hires, Vermont has lost a total of 
25 CBP officers from 2009 to 2015, and Vermont is also suffering a 
shortage from its baseline numbers from the new hire sites in Highgate 
and Derby. I believe that hiring locally will help in Vermont. What 
efforts are in place by DHS in order to hire local residents when 
positions are available?
    Answer. CBP seeks qualified applicants from locations that are 
considered rural or geographically remote as well as those willing to 
live and work in such environments. CBP posts officer job opportunity 
announcements on USAJOBS, the U.S. Government's official Web site for 
listing civil service job opportunities with Federal agencies. The site 
is operated by the Office of Personnel Management. Consistent with 
qualification and application requirements, and other considerations 
identified in each job opportunity announcement, all individuals 
interested in the CBP officer position advertised may apply.
    CBP opens and closes announcements on a monthly basis to ensure a 
continuous flow of new applicants. These announcements include 
locations with current and anticipated future vacancies. At this time, 
CBP does not accelerate applicants based on home of record; however, 
CBP has reengineered its recruitment and hiring operations to ensure 
that candidates are placed into pre-employment processes in an 
expedited manner. CBP's national recruitment strategy requires CBP's 
component field offices to perform outreach and recruitment activities 
within their designated areas of responsibility. In this manner, CBP is 
working to recruit from all sources and to build local partnerships 
(e.g., chambers of commerce, employment offices) that will help to feed 
the hiring pipeline. This is a layered strategy that integrates 
national and local-level recruitment activities to provide information 
concerning CBP career opportunities and current hiring initiatives to 
prospective applicants and others, including those in local communities 
where CBP maintains offices.
    The ports within Vermont do experience higher-than-average rates of 
attrition and other losses. To combat the losses, the Port of Derby 
Line was placed on the June 2015 CBP officer entry-level vacancy 
announcement and received more than 550 applicants. As of March 19, 
2016, the Port of Derby Line achieved its authorized staffing level for 
CBP officers and as of April 4, 2016, the port stands at 103 percent of 
its authorized staffing level. Additionally, one more officer is 
scheduled to enter on duty on May 16, 2016. Furthermore, there are 
another 26 applicants in the pre-employment hiring pipeline.
    Highgate Springs has presented additional challenges with 
increasing attrition and other losses over the last number of months. 
Therefore, the Port of Highgate Springs was placed on the CBP officer 
entry-level vacancy announcement in April 2016. As of April 22, 2016, 
190 applicants have applied to Highgate Springs. Additionally, the Port 
of Highgate Springs will remain on the CBP officer entry-level vacancy 
announcement through May, and likely through June.
    Question. What measures has the Department implemented to help 
incentivize staff to fill positions and combat attrition in the hard to 
staff areas on the northern border?
    Answer. CBP is pursuing a comprehensive, multi-pronged approach to 
address particular staffing challenges. These efforts include the use 
of incentives (e.g., recruitment, relocation, and retention) to attract 
and retain well-qualified employees. Starting with the August 24, 2015, 
CBP officer entry-level vacancy announcement, CBP began to include a 
recruitment incentive offer to attract applicants for CBP officer 
positions in locations experiencing difficulties attracting applicants 
and achieving their authorized staffing levels. This includes locations 
along the northern border. Within fiscal and regulatory constraints, 
CBP is working to strategically increase the use of recruitment 
incentives. In addition to incentives, CBP maintains a national 
reassignment process for eligible employees. Lateral reassignment 
opportunities, which are used to solicit applications from current CBP 
officers, are posted to an internal Web site accessible to all CBP 
employees.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                disaster deductible proposed rulemaking
    Question. On January 20, 2016, the Federal Emergency Management 
Agency (FEMA) published an advance notice of proposed rulemaking 
exploring the concept of a ``disaster deductible.'' As you are aware, 
such a deductible would require for State, tribal, and territorial 
governments to meet a predetermined level of commitment--financial or 
otherwise--before receiving assistance under the Public Assistance 
Program. Understanding that the deductible concept is designed to 
foster greater investment in disaster planning, preparedness, and 
mitigation at the recipient level, I have heard from a number of local 
and other subrecipient entities concerned about the proposal--
specifically that a deductible could unduly complicate their access to 
public assistance funds.
    In evaluating a recipient-level disaster deductible, what 
considerations have DHS and FEMA made with respect to subrecipient 
access to public assistance funds? Especially in cases where a 
subrecipient entity has made considerable investment in preparedness 
and mitigation but its controlling recipient has failed to satisfy the 
deductible requirements?
    Answer. Over the last several years, Members of Congress, the 
Government Accountability Office, and the Department's Inspector 
General have called on FEMA to reform or alter how the Federal 
Government supports States following disasters. In particular, these 
calls have focused on more fully evaluating State and local 
capabilities to ensure that an event is, in fact, beyond their 
capabilities. In response, FEMA is exploring the possibility of 
incorporating a disaster deductible concept into the Public Assistance 
Program. FEMA believes that such an approach has the potential to 
incentivize mitigation strategies and promote risk-informed 
decisionmaking to build resilience, including for catastrophic events; 
reduce the costs of future events for both States and the Federal 
Government; and facilitate State and local government planning and 
budgeting for enhanced disaster response and recovery capability 
through greater transparency.
    FEMA recognizes that this would represent a significant shift in 
the way that the Federal Government supports recipients and 
subrecipients in their recovery efforts following major disasters. 
Because of this, FEMA has published an Advance Notice of Proposed 
Rulemaking to gather input from State, tribal, territorial, and local 
governments, as well as from other stakeholders and the general public. 
The Advance Notice of Proposed Rulemaking represents the beginning of a 
process that the Agency believes ultimately will strengthen our 
Nation's resilience to disaster events and reduce the cost of disasters 
in the long term.
    Through the Advance Notice of Proposed Rulemaking, FEMA 
specifically requested information regarding the relationship between 
recipients and subrecipients, and in particular, the impact that this 
proposal would have on both entities. Under Implementation 
Considerations, Question B, FEMA solicits feedback on items related to 
recipients and subrecipients. The comment period closed on March 21, 
2016. FEMA currently is evaluating the comments, which will determine 
the way forward in the coming months.

                          SUBCOMMITTEE RECESS

    Senator Hoeven. With that, this subcommittee stands in 
recess.
    [Whereupon, at 3:46 p.m., Wednesday, February 24, the 
subcommittee was recessed, to reconvene at a time subject to 
the call of the Chair.]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
